<html>
<title> - IRANIAN WEAPONS PROGRAMS: THE RUSSIAN CONNECTION</title>
<body><pre>[Senate Hearing 106-880]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-880

            IRANIAN WEAPONS PROGRAMS: THE RUSSIAN CONNECTION

=======================================================================

                       HEARING AND PUBLIC MEETING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                AND THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             OCTOBER 5, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                   U.S. GOVERNMENT PRINTING OFFICE
69-750                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
GORDON H. SMITH, Oregon              ROBERT G. TORRICELLI, New Jersey
ROD GRAMS, Minnesota                 PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                   GORDON H. SMITH, Oregon, Chairman
RICHARD LUGAR, Indiana               JOSEPH R. BIDEN, Jr., Delaware
JOHN ASHCROFT, Missouri              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
LINCOLN D. CHAFEE, Rhode Island      PAUL D. WELLSTONE, Minnesota

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

American Jewish Committee's, June 2000 report entitled ``Iran and 
  Weapons of Mass Destruction''..................................    30
Brownback, Hon. Sam, U.S. Senator from Kansas, news release......     3
Einhorn, Hon. Robert J., Assistant Secretary of State for 
  Nonproliferation, Department of State, Washington, DC..........    14
    Prepared statement...........................................    18
Lauder, John A., Director, DCI Nonproliferation Center, Central 
  Intelligence Agency............................................     9
    Prepared statement...........................................    12
Smith, Hon. Gordon H., U.S. Senator from Oregon, prepared 
  statement......................................................     7

                                 (iii)

  

 
            IRANIAN WEAPONS PROGRAMS: THE RUSSIAN CONNECTION

                              ----------                              


                       THURSDAY, OCTOBER 5, 2000

                       U.S. Senate,        
       Subcommittee on Near Eastern and    
                   South Asian Affairs, and
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 11:07 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the Subcommittee on Near Eastern and South Asian 
Affairs) presiding and Hon. Gordon H. Smith (chairman of the 
Subcommittee on European Affairs) presiding.
    Present: Senators Brownback and Smith.
    Senator Brownback. The hearing will come to order. Welcome. 
Assistant Secretary Einhorn, welcome. Mr. Lauder, welcome. 
Delighted to have you here. It is a pleasure to have both of 
you here to testify in front of this joint hearing of the Near 
Eastern and South Asian Affairs and European Affairs 
Subcommittees.
    We are here today to discuss Iran's continuing aggressive 
efforts to obtain weapons of mass destruction. Although the 
Clinton-Gore administration is in the midst of a charm 
offensive toward Iran, going so far as to grant a visa for the 
Iranian Foreign Minister to tour American college campuses last 
month, it is obvious to most of us that Iran remains a danger 
to the world and to its own people. For those of you looking 
for evidence, ten Jews are languishing in Iranian prisons as I 
speak on false charges, probably still praying that the world's 
greatest democracy cares enough to do something for them.
    On March 14 of this year, President Clinton signed the Iran 
Nonproliferation Act of 2000. Now, I assume, perhaps 
incorrectly, that when a President signs a bill into law he 
intends to carry out the terms of that bill. Accordingly, 
Congress was to receive a report on foreign entities or persons 
that provide assistance to Iran's missile and nuclear, 
biological, and chemical weapons programs on June 12 of this 
year. That report never came.
    A second report was due on September 14. It too never came. 
One reason why: The State Department did not even bother to ask 
the CIA for the relevant documents for the report until the 
third week of May, 3 weeks before the first report was due and 
a full 2\1/2\ months after the President signed the bill into 
law.
    But perhaps the administration's lack of urgency relates to 
improvements on the Iran proliferation front. Mr. Einhorn, has 
WMD proliferation to Iran ended, will be a key point and 
question that I will want to hear from you. All the evidence 
that I see suggests to the contrary. Transfers to Iran from the 
very countries with whom this act is concerned, Russia in 
particular, continue unabated.
    Just last month, Tehran again test fired its Shahab-3 
missile. That missile would be sitting in a box somewhere if it 
was not for the assistance of Russia to Iran.
    To my mind, we are facing a major crisis in the coming 
years and responsibility can largely be laid at the feet of 
this administration. In 1993 the Clinton administration turned 
the Nation's Russian policy over to Vice President Al Gore, who 
set up a commission with Victor Chernomyrdin, then the Russian 
Vice Premier. This so-called GCC was supposedly the place where 
U.S. concerns over Russian proliferation were to be resolved.
    Let us take, for example, the matter of Russia's massive 
arming of Iran with advanced conventional weaponry, which began 
in earnest in 1992. In June 1995, Vice President Al Gore 
negotiated a deal with the Russians supposedly to bring this 
trade to a halt. In exchange for Russia's pledge not to 
conclude any new contracts, the United States let Russia into 
the Wassenaar Arrangement, changed U.S. regulations to allow 
U.S. defense contractors and satellite companies to do business 
with Russian firms, and pledged to avoid any sanctions that 
would upset this relationship. In other words, because of this 
deal that was struck by Vice President Gore Russia is eligible 
for all sorts of defense cooperation. Indeed, according to 
recent State Department estimates, Russia has made $7.7 billion 
over the past few years just from launching U.S. satellites.
    It really should not have come as any surprise to anyone 
that, despite the 1995 agreement, Russia continued to sell 
advanced conventional weapons to Iran. Indeed, the Director of 
the Central Intelligence Agency in their most recent 
proliferation report stated: ``Russia, along with its sister 
republics in the FSU, also remains an important source of 
conventional weapons and spare parts for Iran.''
    Then of course there are the ineffectual efforts by this 
administration to terminate Russia's nuclear cooperation with 
Iran. Despite all sorts of pledges by Russia not to go beyond 
limited construction at the Bushehr facility, recent press 
accounts indicate that Russia is now engaging in the sale of 
sophisticated laser technology that will speed Iran's ability 
to enrich nuclear materials from weapons.
    Russia is doing this despite its promise made under the 
Nonproliferation Treaty not to assist foreign nations in 
acquiring nuclear weapons. Russia is doing it despite all 
manner of pledges to Vice President Gore and despite the fact 
that it is receiving hundreds of millions of dollars of foreign 
aid from programs run by the Department of Energy and the 
Department of State.
    We all remember the administration's efforts from 1998 to 
1999 to prevent the Senate from approving the Iran 
Nonproliferation Act. Various officials assured Senators time 
and again that Russia had turned the corner or that President 
Yeltsin had issued a critical directive or that the Duma would 
soon consider changes to export laws to solve these 
proliferation problems.
    But looking back over the past 8 years, the truth of the 
matter is that this administration has not solved the 
proliferation problem. The problem has grown decidedly worse, 
and the world is a far more dangerous place because of that. 
The next administration will inherit a diplomatic situation 
chockful of broken promises and a commercial situation where 
Russian companies are profiting not only from the multi-billion 
dollar trade with the United States, but are doing a healthy 
business with the Iranians on the side.
    Mr. Einhorn, I look forward to hearing you tell me that I 
am wrong on these matters, that the Iranian proliferation 
problem has abated, and that the reason our reports are not 
here is that you have nothing to report. I look forward to that 
testimony and to hearing what is taking place with these 
reports and in this proliferation area.
    [A news release of Senator Brownback follows:]

          News Release--For Immediate Release October 5, 2000

                 Sam Brownback U.S. Senator from Kansas

               GORE-RUSSIA-IRAN ARMS CONNECTION TROUBLING

    Washington.--Vice President Al Gore's connection to arms from 
Russia to Iran was a topic of concern today at a Senate Foreign 
Relations joint subcommittee hearing, U.S. Senator Sam Brownback said. 
Brownback's statement follows.
    ``We are facing a major crisis in the coming years, and 
responsibility can largely be laid at the feet of this 
Administration,'' Brownback said. ``In 1993, the Clinton Administration 
turned the nation's Russia policy over to Al Gore, who set up a 
Commission with Victor Chernomyrdin (then the Russian Vice Premier). 
This so-called ``GCC'' was supposedly the place where U.S. concerns 
over Russian proliferation were to be resolved.
    ``Let us take for example the matter of Russia's massive arming of 
Iran with advanced conventional weaponry, which began in earnest in 
1992. In June, 1995, Al Gore negotiated a deal with the Russians 
supposedly to bring this trade to a halt. In exchange for Russia's 
pledge not to conclude any new contracts, the United States let Russia 
into the Waasenaar Arrangement, changed U.S. regulations to allow U.S. 
defense contractors and satellite companies to do business with Russian 
firms, and pledged to avoid any sanctions that would upset this 
relationship. In other words, because of this deal that was struck by 
Vice President Gore, Russia is eligible for all sorts of defense 
cooperation. Indeed, according to recent State Department estimates, 
Russia has made $7.7 billion over the past few years just from 
launching U.S. satellites.
    ``Despite the 1995 agreement, Russia continued to sell advanced 
conventional weapons to Iran. Indeed, the Director of Central 
Intelligence's most recent proliferation report states: `Russia (along 
with its sister republics in the FSU) also remains an important source 
of conventional weapons and spare parts for Iran . . .'
    ``Then, of course, there are the ineffectual efforts by this 
administration to terminate Russia's nuclear cooperation with Iran. 
Despite all sorts of pledges by Russia not to go beyond limited 
construction at the Bushehr facility, recent press accounts indicate 
that Russia is now engaging in the sale of sophisticated laser 
technology that will speed Iran's ability to enrich nuclear material 
for weapons. Russia is doing this despite its promises made under the 
Nonproliferation Treaty not to assist foreign nations in acquiring 
nuclear weapons.
    ``Russia is doing it despite all manner of pledges to Vice 
President Gore, and despite the fact that it is receiving hundreds of 
millions of dollars in foreign aid from programs run by the Department 
of Energy and the Department of State.
    ``We all remember the administration's efforts from 1998 to 1999 to 
prevent the Senate from approving the Iran Nonproliferation Act. 
Various officials assured Senators, time and again, that Russia had 
`turned the corner', or that President Yeltsin had issued a critical 
directive, or that the Duma would soon consider changes to export laws 
to solve the proliferation problem.
    ``But--looking back over the past eight years--the truth of the 
matter is that this administration has not solved the proliferation 
problem. The problem has grown decidedly worse, and because of that the 
world is a far more dangerous place.
    ``The next administration will inherit a diplomatic situation 
chock-full of broken promises, and a commercial situation where Russian 
companies are profiting not only from multi-billion dollar trade with 
the U.S., but are doing a healthy business with the Iranians on the 
side.
    ``Although the Clinton-Gore Administration is in the midst of a 
charm offensive toward Iran--going so far as to grant a visa for the 
Iranian Foreign Minister to tour American college campuses last month--
it is obvious to most of us that Iran remains a danger to the world, 
and to its own people. And for those of you looking for evidence: ten 
Jews are languishing in Iranian prisons on false charges, probably 
still praying that the world's greatest democracy cares enough to do 
something for them.
    ``On March 14 of this year, President Clinton signed the Iran 
Nonproliferation Act of 2000. Now I assume, perhaps incorrectly, that 
when a President signs a bill into law, he intends to carry out the 
terms of that law. Accordingly, Congress was due to receive a report on 
foreign entities or persons that provide assistance to Iran's missile 
and nuclear, biological, and chemical weapons programs on June 12 of 
this year. It never came.
    ``A second report was due on September 14. It too never came. One 
reason it didn't--the State Department did not even bother to ask the 
CIA for the relevant documents for the report until the third week of 
May, three weeks before the first report was due, and a full two-and-a-
half months after the President signed the bill into law.
    ``Transfers to Iran from the very countries with whom this Act is 
concerned, Russia in particular, continue unabated. Just last month, 
Tehran again test-fired its Shahab-3 missile. That missile would be 
sitting in a box somewhere if it weren't for Russian aid to Iran.
    ``Perhaps the administration's lack of urgency relates to 
improvements on the Iran proliferation front. All the evidence I see 
suggests the contrary,'' Brownback said.
    Today's hearing was a Senate Foreign Relations Committee joint 
subcommittee hearing. Senator Brownback is Chairman of the Subcommittee 
on Near Eastern and South Asian Affairs. Senator Gordon Smith is 
Chairman of the Subcommittee on European Affairs.

    Senator Brownback. We will first hear from Mr. Lauder and 
his testimony and then to Mr. Einhorn. First, though, I want to 
turn the microphone over to the co-chair of this hearing, Mr. 
Smith, who heads the Subcommittee on European Affairs.
    Senator Smith. Thank you, Senator Brownback, for taking the 
initiative to hold this hearing on Russia's role in Iran's 
weapons program. I am grateful we are conducting this hearing 
as a joint session of your subcommittee and my own.
    I would like to also welcome Bob Einhorn and John Lauder, 
to welcome you both. These gentlemen are the point men of our 
Government's efforts to curb the proliferation of destructive 
weapons technologies. In addition to Assistant Secretary 
Einhorn and Mr. Lauder's testimonies, I want to thank the 
American Jewish Committee for its vigilance on this issue. The 
AJC has provided the Foreign Relations Committee with copies of 
the June 2000 report ``Iran and Weapons of Mass Destruction.'' 
I would like to ask that this report in its entirety be 
submitted for the record and thank the American Jewish 
Committee for its efforts.
    Senator Brownback. Without objection.
    [The report referred to begins on page 30:]
    Senator Smith. There are few issues of more pressing 
concern than the Government of Iran's vehement anti-Western 
policy. Its support for international terrorist organizations 
and its sustained efforts to develop and deploy weapons of even 
greater reach and destructiveness is unbelievable. But I do not 
believe that this is the wish of the Iranian people, whose rich 
history at one time included a close and warm relationship with 
America.
    I am hopeful that the recent profound and far-reaching 
changes that we have been witnessing in Iran will open the 
barriers the Iranian Government imposed upon that partnership 
that once existed between our countries. However, despite our 
hope that Iran's internal dynamics will yield a change in our 
two countries' relationships, we cannot yet be confident that 
these dynamics will generate a significant change in Iran's 
conduct abroad in the foreseeable future.
    The unfortunate reality today is that Tehran adamantly 
opposes the U.S.-led Middle East peace process and toward that 
end provides material and financial support to Hezbollah, 
Hamas, the Palestinian Islamic Jihad, and other violent, 
radical Islamic groups. For these and other activities, Iran 
has been identified by the Department of State as the most 
active state sponsor of terrorism.
    The urgency of the threat posed by Iran's foreign policy 
has been increased exponentially by Tehran's efforts to develop 
and deploy missiles of increasing range and accuracy and its 
efforts to complement that offensive capacity with the full 
spectrum of chemical, biological, and nuclear weapons. Just 
this last summer, Iran successfully tested the 800-mile Shahab-
3 missile, the same missile that paraded through Tehran not too 
long ago on a carrier emblazoned with the inscription ``Israel 
should be wiped off the map''--a phrase that underscores Iran's 
destabilizing role in that part of the world.
    But these programs could soon directly affect our own 
security. Iran is in the latter stages of developing a 1,200-
mile range Shahab-4 missile and other ICBM's of potentially 
even greater range. This past March, CIA Director George Tenet 
testified that in the next few years Iran's ICBM's will 
probably be able to reach the United States.
    As the title of this hearing suggests, the progress Iran 
has made in developing its military capabilities has not been 
without outside support. Far from it, the fact is that the 
Iranian military has benefited greatly from foreign suppliers, 
and among these Russia has been second to none. Russian 
equipment, training, technology, and know-how permeate the 
entire Iranian military. The Iranian army is equipped with 
modern Russian tanks and Russian air defense systems. The 
Iranian navy deploys a Russian diesel submarine. In January 
Iran began to mass produce the Russian-developed Konkurs anti-
tank missile.
    Experts predict that Russia will provide Iran some $4 
billion in military equipment in the coming years. Equally 
disturbing has been the assistance Russia has provided Iran's 
missile programs. According to the administration's latest 
unclassified report to Congress on the Acquisition of 
Technology Relating to Weapons of Mass Destruction and Advanced 
Conventional Munitions--this report is dated the 1st of July 
through the 31st of December 1999: ``Russian entities during 
the 6 months of 1999 have provided substantial missile-related 
technology, training, and expertise to Iran that almost 
certainly will continue to accelerate Iranian efforts to 
develop new ballistic missile systems.''
    On top of helping Iran obtain advanced conventional 
weaponry, Russia has been a significant source of assistance to 
Russia's WMD program. The symbol of that cooperation are the 
power plants at Bushehr, where Russia is building two nuclear 
reactors, and Moscow seeks to expand that cooperation. Moscow 
and Tehran are considering the construction of three more 
facilities that are potentially capable of producing weapons-
grade plutonium.
    More recently, the press reported that Moscow agreed to 
send tritium gas to the Nuclear Research Center in Tehran. 
Tritium gas is primarily used to enhance the explosive power of 
nuclear warheads. Now there are indications that Russia is 
pursuing the sale of laser-enriched technology to Iran which 
could be used to make higher grades of nuclear material.
    Let us not forget the fact that Iran will spend close to $1 
billion on the Bushehr nuclear power plant, an expenditure by a 
country that both faces financial difficulty, yet is awash in 
oil. Clearly, Russia cannot be blind to the fact that Bushehr 
is not tied to Iran's energy needs, but is instead a 
cornerstone to its efforts to develop, manufacture, and deploy 
nuclear weapons.
    This sustained and lethal relationship between Russia and 
Iran has not gone unnoticed in Congress. Curbing this 
relationship has been a longstanding bipartisan foreign policy 
priority on the Hill. In the 105th Congress we passed the Iran 
Missile Proliferation Sanctions Act that would have denied U.S. 
Government assistance to those who assist Iran's ballistic 
missile program. Unfortunately, this bill, sponsored by 
Senators Lott and Lieberman, was vetoed by the Clinton-Gore 
administration.
    Congress did pass and the President did sign the Iran 
Nonproliferation Act last March. It authorizes, as opposed to 
mandating, the President to impose such sanctions against those 
sharing these technologies with Iran. The point of these two 
bills, which passed with overwhelming margins, is clear: 
Curbing Russia's support of Iran's weapons programs should be a 
top priority of U.S. policy. The Kremlin's refusal to curb this 
relationship should prompt a substantive change in how the 
United States engages Russia.
    To date the administration has treated this Iranian-Russian 
technology cooperation not as a policy priority, but as a 
nuisance to its own strategy of engaging the Government of the 
Russian Federation. As a result, the administration's response 
to Russia's cooperation with Iran has been more symbolic than 
substantive, a fact clearly evident to the Kremlin.
    As I mentioned, the administration reported that during the 
first half of 1999 Russia was a major supplier of missile 
technology to Iran. There is ample evidence today that this 
cooperation continues, and Russia recently agreed to provide 
Iran technologies and materials that Tehran can use to further 
its development of nuclear weapons.
    What has been the Iran response? It is true that the 
administration sanctioned the specific Russian institutes and 
companies known to have been the most immediate source of 
technology obtained by Iran, and it is true that this has 
denied these specific entities access to U.S. assistance and 
cooperation. However, at the same time, the administration 
expanded both the depth and breadth of U.S.-Russian cooperation 
involving sensitive missile and space technology. Over the last 
year it expanded U.S.-Russia space cooperation involving 
technology-sharing and assistance dollars.
    There is great concern about the possibility of technology 
sharing in this area. It is a mistake for the administration to 
conclude that one can draw a clear line between the Russian 
Government and these Russian so-called entities that have been 
the direct source of dangerous technologies given to Iran. Such 
an inference reflects a naive understanding, I believe, of the 
economic and political power in Russia today.
    As we approach an important Presidential election, now is 
the appropriate time to evaluate, refine, and if necessary 
restructure how our Government approaches the challenges and 
dangers consequent to Russia's role in Iran's missile and WMD 
programs. The track record clearly indicates that our current 
strategy has not sufficiently convinced the Government of the 
Russian Federation to curb the flow of its dangerous weapons 
and technologies to Iran and, for that matter, to other states 
whose policies jeopardize American national security interests.
    Again I thank our witnesses, Bob and John, for appearing 
before us today. I am interested in your evaluation of what 
role Russia plays in Iran's weapons program, the role that it 
likely is to play in the foreseeable future, and what the 
United States can do to more effectively curb this lethal 
partnership.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Smith follows:]

               Prepared Statement of Senator Gordon Smith

    Thank you, Senator Brownback, for taking the initiative to hold 
this hearing on Russia's role in Iran's weapons programs. I am grateful 
that we are conducting this hearing as a joint session of my 
Subcommittee on European Affairs and your Subcommittee on Near Eastern 
and South Asian Affairs.
    Ambassador Einhorn, Mr. Lauder, I welcome you as a friend and, 
respectively, as our Assistant Secretary of State for Nonproliferation 
and our Special Assistant to the Director of Central Intelligence for 
Non-Proliferation. These gentlemen are the point-men of our 
government's effort to curb the proliferation of destructive weapons 
technologies.
    In addition to Ambassador Einhorn's and Mr. Lauder's testimonies, I 
want to thank the American Jewish Committee for its vigilance on this 
issue. The AJC has provided the Foreign Relations Committee with copies 
of the June 2000 report, ``Iran and Weapons of Mass Destruction.''
    There are few issues of greater pressing national security concern 
than the Government of Iran's vehemently anti-Western policy, its 
support for international terrorist organizations, and its sustained 
efforts to develop and deploy weapons of ever greater reach and 
destructiveness. I do not believe that this is the wish of the Iranian 
people, whose rich history at one time included a close and warm 
relationship with America. I am hopeful that the recent profound and 
far-reaching changes we may be witnessing in Iran today will open the 
barriers the Iranian Government imposed upon that partnership.
    However, despite our hope that Iran's internal dynamics will yield 
a change in our two countries' relationship, we cannot yet be confident 
that these dynamics will generate a significant change in Iran's 
conduct abroad in the foreseeable future. The unfortunate reality today 
is that Tehran adamantly opposes the U.S.-led Middle East peace process 
and, toward that end, provides material and fmancial support to 
Hizballah, Hamas, Palestinian Islamic Jihad, and other violent, radical 
Islamic groups.
    For these and other activities, Iran has been identified by the 
Department of State as ``THE'' most active state sponsor of terrorism. 
The urgency of the threat posed by Iran's foreign policy has been 
increased exponentially by Tehran's efforts to develop and deploy 
missiles of increasing range and accuracy and its efforts to complement 
that offensive capacity with the full spectrum of chemical, biological, 
and nuclear weapons. Just this last summer, Iran successfully tested 
the 800 mile Shahab-3 missile--the same missile it paraded through 
Tehran not too long-ago on a carrier emblazoned with the inscription 
``Israel should be wiped off the map''--a phrase that underscores 
Iran's destabilizing role in that part of the world.
    But these programs could soon directly affect our own security. 
Iran is in the latter stages of developing a 1,200-mile range Shahab-4 
missile and other ICBMs of potentially even greater ranges. This past 
March, CIA Director George Tenet testified that in the next few years 
Iran's ICBMs will probably be able to reach the United States.
    As the title of this hearing suggests, the progress Iran has made 
in developing its military capabilities has not been without outside 
support. Far from it. The fact is that the Iranian military has 
benefitted greatly from foreign suppliers--and, among these, Russia has 
been second-to-none. Russian equipment, training, technology, and know-
how permeate the entire Iranian military. The Iranian army is equipped 
with modern Russian tanks and Russian air defense systems. The Iranian 
navy deploys Russian diesel submarines.
    In January, Iran began to mass produce the Russian developed 
Konkurs anti-tank missile. Experts predict that Russia will provide 
Iran some $4 billion in military equipment in the coming years. Equally 
disturbing has been the assistance Russia has provided Iran's missile 
programs. According to the Administration's latest Unclassified Report 
to Congress on the Acquisition of Technology Relating to Weapons of 
Mass Destruction and Advanced Conventional Munitions. 1 July Through 31 
December 1999:

        Russian entities during the second six months of 1999 have 
        provided substantial missile related technology, training, and 
        expertise to Iran that almost certainly will continue to 
        accelerate Iranian efforts to develop new ballistic missile 
        systems.

    On top of helping Iran attain advanced conventional weaponry, 
Russia has been a significant source of assistance to Iran's WMD 
programs. The symbol of that cooperation are the powerplants at Bushehr 
where Russia is building two nuclear reactors--and Moscow seeks to 
expand that cooperation. Moscow and Tehran are considering the 
construction of three more facilities that are potentially capable of 
producing weapons-grade plutonium.
    More recently, the press reported that Moscow agreed to send 
tritium gas to a nuclear research center in Tehran. Tritium gas is 
primarily used to enhance the explosive power of nuclear warheads. And, 
now there are indications that Russia is pursuing the sale of laser 
enrichment technology to Iran which can be used to make grade nuclear 
material.
    Let us not forget the fact that Iran will spend close to $1 billion 
on the Bushehr nuclear power plant--an expenditure by a country that 
both faces financial difficulty, yet is awash in oil. Clearly, Russia 
cannot be blind to the fact that Bushehr is not tied to Iran's energy 
needs but is instead a cornerstone to its efforts to develop, 
manufacture, and deploy nuclear weapons. This sustained and lethal 
relationship between Russia and Iran has not gone unnoticed in 
Congress. Curbing this relationship has been a long-standing, bi-
partisan foreign policy priority here on the Hill.
    The 105th Congress passed the Iran Missile Proliferation Sanctions 
Act that would have denied U.S. Government assistance to those who 
assist Iran's ballistic missile program. Unfortunately, this bill 
sponsored by Senators Lott and Lieberman, was vetoed by the 
Administration. Congress did pass and the President did sign the Iran 
Nonproliferation Act last March. It authorizes, as opposed to mandates, 
the President to impose such sanctions against those sharing these 
technologies with Iran.
    The point of these two bills, which passed with overwhelming 
margins, is clear. Curbing Russia's support of Iran's weapons programs 
should be a top priority of U.S. policy. The Kremlin's refusal to curb 
this relationship should prompt a substantive change in how the United 
States engages Russia.
    To date, the Administration has treated this Iranian-Russian 
technology cooperation not as a policy priority, but as a nuisance to 
its own strategy of engaging the Government of the Russian Federation. 
As a result, the Administration's response to Russia's cooperation with 
Iran has been more symbolic than substantive, a fact clearly evident to 
the Kremlin.
    As I mentioned, the Administration reported that during the first 
half of 1999, Russia was a major supplier of missile technology to 
Iran. There is ample evidence that this cooperation continues today, 
and Russia recently agreed to provide Iran technologies and materials 
that Tehran can use to further its development of nuclear weapons. What 
has been the U.S. response?
    It is true that the administration sanctioned the specific Russian 
institutes and companies known to have been the most immediate source 
of technology attained by Iran. And it is true that this has denied 
these specific entities access to U.S. assistance and cooperation. 
However, at the same time, the Administration expanded both the depth 
and breadth of U.S.-Russian cooperation involving sensitive missile and 
space technology. Over the last year it expanded U.S.-Russia space 
cooperation involving technology sharing and assistance dollars. There 
is great concern about the possibility of technology sharing in this 
area.
    It is a mistake for the Administration to conclude that one can 
draw a clear line between the Russian Government and these Russian so-
called ``entities'' that have been the direct source of dangerous 
technologies to Iran. Such an inference reflects a naive understanding 
of economic and political power in Russia today.
    As we approach an important Presidential election, now is the 
appropriate time to evaluate, refine and, if necessary, restructure how 
our Government approaches the challenges and dangers consequent to 
Russia's role in Iran's missile and WMD programs. The track record 
clearly indicates that our current strategy has not sufficiently 
convinced the Government of the Russian Federation to curb the flow of 
its dangerous weapons technologies to Iran and, for that matter, to 
other states whose policies jeopardize American national security 
interests.
    I thank our witnesses for appearing before us today. I am 
interested in your evaluation of what role Russia plays in Iran's 
weapons programs, the role it is likely to play in the foreseeable 
future, and what the United States can do to more effectively curb this 
lethal partnership.

    Senator Brownback. Thank you, Senator Smith.
    I have been told that there is objection to hearings going 
forward, that the Democrats have objected after 11:30. So at 
11:30 we will need to turn the transcriber off, not transcribe, 
and we will take--we will go from a hearing to a public 
meeting, and we will have a videotape and be able to take the 
record from that. So I want to inform all present about that.
    Mr. Lauder, thank you very much for joining us and I look 
forward to your testimony. The floor is yours.

STATEMENT OF JOHN LAUDER, SPECIAL ASSISTANT TO THE DIRECTOR OF 
CENTRAL INTELLIGENCE FOR NONPROLIFERATION, CENTRAL INTELLIGENCE 
                             AGENCY

    Mr. Lauder. Thank you, Mr. Chairman and Mr. Chairman, thank 
you for inviting us to testify on this important topic.
    As you both noted in your opening statements, Iran has 
ambitious development programs for missiles and weapons of mass 
destruction. Iran is seeking technologies related to missiles, 
as well as technology related to nuclear, chemical, and 
biological weapons, from a number of foreign sources. The 
development of these weapons in Iran and the extent to which 
foreign assistance is advancing Iranian weapons programs are 
among our toughest intelligence challenges and among our 
highest priorities in the intelligence community.
    In my testimony today I will provide a summary of Russian 
assistance to Iran's weapons of mass destruction programs and 
its ballistic missile delivery systems. The Iranians regard 
these programs and the assistance to them as among their 
highest state secrets and go to great lengths to hide them from 
us. As a result, our knowledge of these programs is based on 
extremely sensitive intelligence sources and methods, and this 
precludes me from providing many details in this open session. 
But I hope the summary itself will be of use to the committee, 
and we will continue to keep the committee informed of 
additional details in classified briefings.
    I would like to begin with a few comments on Iran's nuclear 
power and nuclear weapons programs. The intelligence community 
judges that Iran is actively pursuing the acquisition of 
fissile material and the expertise and technology necessary to 
form that material into nuclear weapons. As part of this 
process, Iran is attempting to develop the capability to 
produce both plutonium and highly enriched uranium.
    Iran is seeking nuclear-related equipment, material, and 
technical assistance from a variety of foreign sources, most 
notably in Russia. Tehran claims that it seeks foreign 
assistance to master nuclear technology for civilian research 
and nuclear energy programs. However, the expertise and 
technology gained, along with the contacts established, could 
be used to advance Iran's nuclear weapons effort.
    Work continues on the construction of a 1,000-megawatt 
nuclear power reactor at Bushehr that will be subject to 
International Atomic Energy safeguards. This project will not 
directly support a weapons effort, but it affords Iran broad 
access to Russia's nuclear industry.
    Russian entities are interacting with Iranian nuclear 
research centers on a wide variety of activities beyond the 
Bushehr project. Many of these projects, ostensibly for 
civilian nuclear uses, have direct application to the 
production of weapons-grade fissile material, and the United 
States has levied trade restrictions against two Russian 
entities for providing nuclear assistance to Iran.
    I would like to touch briefly on assistance by Russian 
entities to Iran that could contribute to Tehran's chemical 
warfare program. Iran launched its offensive chemical warfare 
program or CW program in the early 1980's in response to 
Baghdad's use of CW during the Iran-Iraq War. We believe the 
program remains active despite Tehran's decision to ratify the 
Chemical Weapons Convention.
    Iran has a large and growing CW production capacity and 
already has produced a number of CW agents, including nerve, 
blister, choking, and blood agents. We believe it possesses a 
stockpile of at least several thousand metric tons of 
weaponized and bulk agent. Tehran's goals for its CW program 
for the past decade have been to expand its production 
capability and stockpile, reach self-sufficiency by acquiring 
the means to manufacture chemical production equipment and 
precursors, and diversify its CW arsenal by producing more 
sophisticated and lethal agents and munitions.
    Numerous Russian entities have been providing Iran with 
dual use industrial chemicals, equipment, and chemical 
production technology that could be diverted to Tehran's 
offensive CW program. In 1999, for example, Russian entities 
provided production technology, training, and expertise that 
Iran could use to create a more advanced and self-sufficient CW 
infrastructure.
    Turning now to Iran's biotechnology programs. Iran is 
pursuing both civilian biotech activities and a biological 
warfare [BW] program. Assistance by Russian activities to the 
former, the biotech activities, could further Iran's pursuit of 
biotechnology for military applications. Iran's biological 
weapons program or warfare program was initiated in the 1980's 
during the Iran-Iraq War. The program is in the late stages of 
research and development, but we believe Iran already holds 
some stocks of biological agents and weapons.
    Tehran probably has investigated both toxins and live 
organisms as BW agents and for BW dissemination could use many 
of the same delivery systems, such as artillery and aerial 
bombs, that it has in its CW inventory. Iran has the technical 
infrastructure to support a significant BW program. It conducts 
top-notch legitimate biomedical research at various institutes, 
which we suspect also provide support to the BW program.
    Iran is seeking expertise and technology from Russian 
entities that could advance Tehran's biological warfare effort. 
Russia has several government to government agreements with 
Iran in a variety of scientific and technical fields. Because 
of the dual use nature of much of this technology, Tehran can 
exploit these agreements to procure equipment and expertise 
that could be diverted to its BW effort.
    Turning finally to missiles, Iran's ballistic missile 
program is one of the largest in the Middle East. Tehran 
already has deployed hundreds of short-range ballistic missiles 
covering most of Iraq and many strategic targets in the Persian 
Gulf. It is developing and may soon deploy the 1,300-kilometer 
range Shahab-3 medium range ballistic missile, which would 
allow Iran to reach Israel and most of Saudi Arabia and Turkey. 
Tehran probably has a small number of Shahab-3's available now 
for use in a conflict. It has announced that production and 
deployment has begun and it publicly displayed three Shahab-3's 
along with a mobile launcher and other ground support 
equipment.
    Iran's public statements indicate that it plans to develop 
longer range delivery systems. Although Tehran stated that the 
Shahab-3 is Iran's last military missile, we are concerned that 
Iran will use future systems in a military role.
    Iran's defense minister announced the development of the 
Shahab-4, originally calling it a more capable ballistic 
missile than the Shahab-3, but later characterizing it as a 
space launch vehicle with no military applications. Tehran has 
also mentioned plans for a Shahab-5, strongly suggesting that 
it intends to develop even longer-range ballistic missiles in 
the near future. And Iran has displayed a mockup satellite and 
space launch vehicle, an SLV, suggesting it plans to develop an 
SLV to deliver Iranian satellites to orbit. However, Iran could 
convert an SLV into a ballistic missile by developing a reentry 
vehicle.

    [Whereupon, at 11:33 a.m., the hearing was adjourned and a 
public meeting was conducted.]

    Mr. Lauder. In this context, cooperation between Tehran and 
Russian aerospace entities has been a matter of proliferation 
concerns since the mid-1990's. Iran is acquiring Russian 
technology which could significantly accelerate the pace of its 
ballistic missile development program. Assistance by Russian 
entities has helped Iran save years of development of Shahab-3, 
which was flight-tested in 1998 and twice again this year.
    Russian assistance also is playing a crucial role in Iran's 
ability to develop more sophisticated and longer range 
missiles. Russian entities have helped the Iranian missile 
effort in areas such as training, testing, and components. 
These entities vary in size and cover a wide range of 
specialties. The scope of the assistance is illustrated by the 
variety of organizations that have been the subject of U.S. 
trade restrictions. Such restrictions have been levied against 
Russia's Government-owned space technology marketing agency, 
Glavkosmos, the aerospace materials research institute, 
NIIGrafit, the guidance technology developer, Polyus, and 
several smaller and less prominent entities. Further trade 
actions have been imposed against two major entities, the 
Moscow Aviation Institute, and the Baltic State Technical 
University.
    Mr. Chairman, in the interest of time I have skipped over a 
few points in my statement, but I have submitted it for the 
record. I will attempt to answer the committee's questions 
within the constraints imposed on us by the need to protect 
sensitive sources and methods, and we would be delighted to 
present committee members with a more detailed assessment of 
these issues in a closed setting, and our intelligence 
reporting and analysis also provides the underpinnings for the 
policy effort to stop the flow of weapons-related technology to 
Iran that Assistant Secretary Einhorn will address in his 
testimony.
    [The prepared statement of Mr. Lauder follows:]

                  Prepared Statement of John A. Lauder

    Thank you Mr. Chairman for inviting me to testify on this important 
topic. Iran has ambitious development programs for missiles and weapons 
of mass destruction (WMD). It is seeking technologies related to 
missiles, as well as technology related to nuclear, chemical, and 
biological weapons, from a number of foreign sources. The development 
of these weapons in Iran, and the extent to which foreign assistance is 
advancing Iranian weapons programs, are among our toughest intelligence 
challenges and among our highest priorities.
    Mr. Chairman, in my testimony today I will provide a summary of 
Russian assistance to Iran's weapons of mass destruction programs and 
its ballistic missile delivery systems. The Iranians regard these 
programs--and assistance to them--as among their highest state secrets 
and go to great lengths to hide them from us. As a result, our 
knowledge of these programs is based on extremely sensitive sources and 
methods. This precludes me from providing many details in open session. 
But I hope this summary will be of use to the Committee, and we will 
continue to keep the Committee informed of additional details in 
classified briefings.

                                NUCLEAR

    Mr. Chairman, I would like to begin with a few comments on Russian 
aid to Iran's nuclear power and nuclear weapons program. The 
Intelligence Community judges that Iran is actively pursuing the 
acquisition of fissile material and the expertise and technology 
necessary to form the material into nuclear weapons. As part of this 
process, Iran is attempting to develop the capability to produce both 
plutonium and highly-enriched uranium.
    As part of this effort, Iran is seeking nuclear-related equipment, 
material, and technical expertise from a variety of foreign sources, 
most notably in Russia. Tehran claims that it seeks foreign assistance 
to master nuclear technology for civilian research and nuclear energy 
programs. However, the expertise and technology gained--along with the 
contacts established--could be used to advance Iran's nuclear weapons 
effort.

  <bullet> Work continues on the construction of a 1,000-megawatt 
        nuclear power reactor at Bushehr that will be subject to 
        International Atomic Energy Agency (IAEA) safeguards. This 
        project will not directly support a weapons effort, but it 
        affords Iran broad access to Russia's nuclear industry.

  <bullet> Russian entities are interacting with Iranian nuclear 
        research centers on a wide variety of activities beyond the 
        Bushehr project. Many of these projects, ostensibly for 
        civilian nuclear uses, have direct application to the 
        production of weapons-grade fissile material.

    The United States has levied trade restrictions against two Russian 
entities--NIKIET and Mendeleyev University--for providing nuclear 
assistance to Iran.

                                CHEMICAL

    I would like to touch briefly on assistance by Russian entities to 
Iran that could contribute to Tehran's chemical warfare (CW) program. 
Iran launched its offensive CW program in the early 1980s in response 
to Baghdad's use of CW during the Iran-Iraq war. We believe the program 
remains active despite Tehran's decision to ratify the Chemical Weapons 
Convention (CWC). Iran has a large and growing CW production capacity 
and already has produced a number of CW agents, including nerve, 
blister, choking, and blood agents. We believe it possesses a stockpile 
of at least several hundred metric tons of weaponized and bulk agent.
    Tehran's goals for its CW program for the past decade have been to 
expand its production capability and stockpile, reach self-sufficiency 
by acquiring the means to manufacture chemical production equipment and 
precursors, and diversify its CW arsenal by producing more 
sophisticated and lethal agents and munitions.
    Numerous Russian entities have been providing Iran with dual-use 
industrial chemicals, equipment, and chemical production technology 
that could be diverted to Tehran's offensive CW program.

  <bullet> In 1999, for example, Russian entities provided production 
        technology, training, and expertise that Iran could use to 
        create a more advanced and self-sufficient CW infrastructure.

                               BIOLOGICAL

    I would like to now turn to assistance by Russian entities to 
Iran's biotechnical programs. Iran is pursuing both civilian biotech 
activities and a biological warfare (BW) program. Assistance by Russian 
entities to the former could further Iran's pursuit of biotechnology 
for military applications.
    Iran's BW program was initiated in the 1980s during the Iran-Iraq 
war. The program is in the late stages of research and development, but 
we believe Iran already holds some stocks of BW agents and weapons. 
Tehran probably has investigated both toxins and live organisms as BW 
agents, and for BW dissemination could use many of the same delivery 
systems--such as artillery and aerial bombs--that it has in its CW 
inventory.

  <bullet> Iran has the technical infrastructure to support a 
        significant BW program. It conducts top-notch legitimate 
        biomedical research at various institutes, which we suspect 
        also provide support to the BW program.

    Iran is seeking expertise and technology from Russia that could 
advance Tehran's biological warfare effort. Russia has several 
government-to-government agreements with Iran in a variety of 
scientific and technical fields.

  <bullet> Because of the dual-use nature of much of this technology, 
        Tehran can exploit these agreements to procure equipment and 
        expertise that could be diverted to its BW effort.

  <bullet> Iran's BW program could make rapid and significant advances 
        if it has unfettered access to BW expertise resident in Russia.

                                MISSILE

    I will now discuss Russian aid to Iran's ballistic missile program. 
Iran's ballistic missile program is one of the largest in the Middle 
East. Tehran already has deployed hundreds of short-range (150-500 km) 
ballistic missiles, covering most of Iraq and many strategic targets in 
the Persian Gulf. It is developing and may soon deploy the 1,300 km 
range Shahab-3 medium-range ballistic missile, which would allow Iran 
to reach Israel and most of Saudi Arabia and Turkey. Tehran probably 
has a small number of Shahab-3s available for use in a conflict; it has 
announced that production and deployment has begun, and it publicly 
displayed three Shahab-3s along with a mobile launcher and other ground 
support equipment.
    Iran's public statements indicate that it plans to develop longer 
range delivery systems. Although Tehran stated that the Shahab-3 is 
Iran's last military missile, we are concerned that Iran will use 
future systems in a military role.

  <bullet> Iran's Defense Minister announced the development of the 
        Shahab-4, originally calling it a more capable ballistic 
        missile than the Shahab-3, but later categorizing it as a space 
        launch vehicle with no military applications.

  <bullet> Tehran has also mentioned plans for a Shahab-5, strongly 
        suggesting that it intends to develop even longer range 
        ballistic missiles in the near future.

  <bullet> Iran has displayed a mock-up satellite and space launch 
        vehicle (SLV), suggesting it plans to develop an SLV to deliver 
        Iranian satellites to orbit. However, Iran could convert an SLV 
        into a ballistic missile by developing a reentry vehicle.

    In this context, cooperation between Tehran and Russian aerospace 
entities has been a matter of proliferation concern since the mid-
1990s. Iran is acquiring Russian technology which could significantly 
accelerate the pace of its ballistic missile development program.

  <bullet> Assistance by Russian entities has helped Iran save years in 
        its development of the Shahab-3, which was flight-tested in 
        1998 and twice again this year.

  <bullet> Russian assistance also is playing a crucial role in Iran's 
        ability to develop more sophisticated and longer-range 
        missiles.

    Russian entities have helped the Iranian missile effort in areas 
such as training, testing, and components. These entities vary in size 
and cover a wide range of specialties. The scope of assistance is 
illustrated by the variety of organizations that have been subjects of 
U.S. trade restrictions.

  <bullet> Such restrictions have been levied against Russia's 
        government-owned space-technology marketing agency Glavkosmos, 
        the aerospace materials research institute NIIGrafit, the 
        guidance technology developer Polyus, and several smaller and 
        less prominent entities.

  <bullet> Further, trade actions have been imposed against two major 
        educational entities, the Moscow Aviation Institute and the 
        Baltic State Technical University.

                           RUSSIAN OVERSIGHT

    Finally, I would like to turn to the issue of Russian efforts to 
curb the transfers of WMD and missile technology to Iran. Beginning in 
January 1998, the Russian Government took a number of steps to increase 
its oversight of entities involved in dealings with Iran and other 
states of proliferation concern. In 1999, it passed a new export 
control law intended to strengthen restrictions on the export of 
weapons of mass destruction, missile systems, and related technologies.

  <bullet> However, the government's weak enforcement of export control 
        legislation has facilitated some Russian companies' efforts to 
        circumvent export controls in the interest of financial gains.

    Mr. Chairman, that concludes my prepared statement. I will attempt 
to answer the Committee's questions within the constraints imposed on 
us by the need to protect sensitive sources and methods. We would be 
delighted to present Committee Members with a more detailed assessment 
of Russian assistance to Iran's WMD and ballistic missile programs in a 
closed setting.
    Our intelligence reporting and analysis also provides the 
underpinnings for policy efforts to stop the flow of weapons-related 
technology to Iran. Assistant Secretary Einhorn will address these 
efforts in his testimony.

    Senator Brownback. Thank you, Mr. Lauter. I appreciate 
that.
    Mr. Einhorn, we look forward to your testimony. What Mr. 
Lauder put forward is a very troubling set of expansion of 
proliferation of weapons of mass destruction that has been in 
that relationship between Russia and Iran. I hope you will 
enlighten us to how that is not occurring or is not going to 
occur in the future.

  STATEMENT OF HON. ROBERT J. EINHORN, ASSISTANT SECRETARY OF 
STATE FOR NONPROLIFERATION, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Einhorn. Thank you, Mr. Chairman and Senator 
Smith for giving me the opportunity to appear before the 
subcommittees this morning. I have a prepared statement that 
overlaps substantially with Mr. Lauter's statement in 
describing Iran's weapons of mass destruction and ballistic 
missile programs. With your permission, I would like to submit 
that prepared statement for the record.
    Senator Brownback. Absolutely.
    Ambassador Einhorn. I will proceed to summarize the 
administration's policy response to this problem, but if you 
compare the two statements you will see that we really do agree 
on all fundamentals as far as what Iran is up to in this field.
    In view of the serious risks to U.S. interests posed by 
Iran's WMD and----
    Senator Brownback. Mr. Einhorn, if I could ask you to pull 
that microphone up a bit closer to you.
    Mr. Einhorn. Sure.
    Senator Brownback. It is pretty directional and a lot of 
people cannot hear you very well.
    Mr. Einhorn. Sure.
    Senator Brownback. Thank you.
    Mr. Einhorn. In view of the serious risks to U.S. interests 
posed by Iran's WMD and missile programs, the administration 
has given a very high priority to impeding these programs, and 
we have sought to do so through a variety of means. We have 
strengthened the multilateral export control regimes, thereby 
denying Iran and other proliferators access to the world's best 
sources of sensitive technology and forcing them to resort to 
elaborate and uncertain procurement methods that can result in 
slowing the pace, driving up the costs, and reducing the 
quality of their acquisitions. With Iran actively looking for 
weak links in the chain of control, we have provided 
substantial assistance to countries that are potential targets 
of Iranian procurement efforts in order to help them bolster 
their national export control systems and their border 
security.
    When we have received information about troublesome 
transactions involving Iran's weapons programs, we have been 
able on a number of occasions to intervene diplomatically and 
persuade the governments of supplying countries to take steps 
to halt a pending transfer.
    To help secure sensitive materials and know-how at their 
source, we have provided large-scale support for Russia's 
efforts to protect, store, and account for its nuclear 
materials, and have funded civilian scientific work by over 
20,000 former Soviet weapons specialists to reduce their 
incentives for assisting countries like Iran.
    Impeding Iran's nonconventional procurement efforts has 
figured prominently in recent years in our bilateral relations 
with China, North Korea, and Russia. In 1997, China agreed to 
phaseout all of its nuclear cooperation with Iran, even 
cooperation carried out under International Atomic Energy 
Agency safeguards. We believe the Chinese have made good on 
this pledge.
    In 1997, we imposed sanctions on seven Chinese entities for 
providing dual-use chemicals and chemical production equipment 
and production technology to Iran's chemical weapons program. 
Subsequently, Chinese authorities took steps to tighten their 
system of chemical controls, although enforcement remains 
uneven.
    Our current efforts with China focus primarily on missile 
exports. We have held several rounds of talks this year aimed 
at encouraging Beijing to augment its missile-related export 
control system and prevent Chinese entities from transferring 
equipment and technology that contribute to Iranian missiles 
capable of delivering nuclear weapons. We have made progress, 
but more work remains.
    Halting missile-related exports to Iran and other countries 
is a high priority of our engagement with North Korea. In our 
several rounds of missile talks with the North Koreans we have 
repeatedly sought to gain their agreement to ban all missile 
exports, and we will continue to do so. We have made clear that 
continued missile exports would subject them to additional 
economic sanctions, and that such sanctions would place a major 
obstacle in the way of economic normalization between the 
United States and the DPRK. We have imposed missile sanctions 
on North Korea six times.
    Assistance by Russian entities to Iran's missile and 
nuclear programs has been a persistent problem in U.S.-Russian 
relations for over half a decade. Both the President and the 
Vice President, as well as other senior administration 
officials, have engaged on this issue on an almost continuous 
basis. Every Presidential summit meeting and every meeting of 
the U.S.-Russian Binational Commission has placed these 
nonproliferation concerns at the top of the agenda.
    In our bilateral engagement we have made clear that 
stopping highly sensitive cooperation with Iran would expand 
opportunities for mutually beneficial and potentially lucrative 
cooperation between the two countries, including in the areas 
of commercial space and nuclear energy, but we have also 
stressed that failure to solve the problem would inevitably 
create obstacles to such cooperation.
    So far, we have used the administration's Executive order 
authorities to impose penalties on 10 Russian entities for 
assisting Iran's missile and nuclear programs. Our intensive 
efforts with the Russians over the last few years have produced 
some significant positive steps.
    Russia passed a new export control law in 1999 providing 
for the first time legal authority to control the export of any 
item that could contribute to a program of proliferation 
concern. It has reorganized export control responsibilities 
within the Government to make the bureaucracy more effective in 
implementing Russia's laws and policies.
    At U.S. urging, it has instituted internal compliance 
programs in key Russian entities and so far over 500 firms 
manufacturing items of proliferation concern have received 
training in their export control obligations.
    It has established seven export control working groups with 
the United States in such areas as law enforcement, and dual 
use licensing, to help strengthen the Russian export control 
system. It has carried out investigations of problem cases we 
have brought to Russia's attention, and in a number of those 
cases it has halted Russia's cooperation with Iran, enabling us 
last April to announce our intention to lift U.S. penalties 
against two of those entities.
    While we have imposed penalties on organizations engaged in 
sensitive cooperation with Iran, we have also made important 
headway by holding out benefits for responsible behavior. In 
this connection, our Russian partners in the international 
space station and in the major U.S.-Russian commercial space 
launch joint venture understand the value of their cooperation 
with us, and are on guard to avoid the kinds of interactions 
with countries of concern that could put that cooperation in 
jeopardy.
    It is clear that key players in the Russian Government such 
as the Russian Aviation and Space Agency and the new Department 
of Export Controls of the Ministry of Economic Development and 
Trade see an important stake in stopping assistance to Iran's 
nonconventional programs, and are working hard to get their 
arms around a very difficult problem.
    However, enforcement of its export control laws and 
policies has been very uneven. While some Russian aerospace 
entities have severed their cooperation with Iran, other 
individuals and entities have been far too willing to take 
their place.
    The situation is even worse in the nuclear area. Unlike in 
the aerospace field, where many of the entities assisting Iran 
have little relationship to the Russian Government, almost all 
nuclear cooperation with Iran is carried out by MINATOM, the 
Ministry of Atomic Energy, or one of its many subsidiaries and 
affiliates. We have made clear to the Russians that we will not 
go forward with collaboration on advanced nuclear power 
reactors or other new cooperation in the nuclear field until 
our concerns are resolved.
    Clearly, many of the remaining problems involve 
shortcomings of the relatively new Russian system of export 
control. Even with greater resources and the best of intention, 
it would be hard for Moscow authorities to detect and stop all 
attempts to circumvent Russian controls, but equally clearly, 
part of the problem is a lack of determination.
    We are convinced that if Russian leaders gave the matter 
sufficient priority, Iran's nuclear and missile procurement 
efforts in Russia could be stopped. We do not doubt that 
Russians, when they say their interests would be harmed at 
least as much as ours by Iran's acquisition of nuclear weapons 
deliverable by long-range nuclear--let me say that again.
    We do not doubt the Russians when they say their interests 
would be harmed at least as much as ours by Iran's acquisition 
of these capabilities, but if the Russians believe that the 
nuclear and missile cooperation now underway will not actually 
contribute materially to and accelerate Iran's acquisition of 
such a capability, they are engaging in wishful or short-
sighted thinking.
    Recently, we have seen some encouraging signs. At their 
July meeting at the Okinawa G-8 summit President Putin assured 
President Clinton that he would take personal responsibility 
for ensuring that Russia's laws and commitments with respect to 
these nonproliferation issues are carried out faithfully. 
Subsequently, when provided with information that Russia's 
Yefremov Institute was providing Iran with laser isotope 
separation technology for enriching uranium, Russian 
authorities suspended the transaction pending a thorough 
investigation of its implications. We hope that this action 
will be a forerunner of concrete and decisive steps to halt 
assistance by Russian entities to missile and nuclear programs 
in Iran.
    In conclusion, Mr. Chairman, impeding Iran's WMD and 
missile delivery systems will remain at the top of the U.S. 
national security agenda for sometime to come. We cannot 
predict the direction of political events in Tehran, but should 
Iranian authorities accept the U.S. offer of an official 
bilateral dialog, nonproliferation will be a key focus of the 
dialog.
    We would seek in those discussions to persuade the Iranians 
that their legitimate security and other broad national 
interests would best be served by verifiably and reliably 
renouncing WMD and the long-range ballistic missiles that can 
carry them. In the meantime, we have no alternative but to 
continue an active strategy of seeking to thwart Iranian 
efforts to procure the materials and technologies they need for 
their nonconventional programs.
    We will use a variety of means to pursue that strategy, 
including strengthening multilateral regimes, carrying out 
energetic diplomatic efforts with key supplier governments and, 
when warranted, utilizing our legal and other authorities to 
penalize those responsible for assisting nonconventional 
programs of states of proliferation concern.
    By the standards one must judge nonproliferation efforts, 
our policies with respect to Iran have been effective. They 
have succeeded in slowing and complicating Iran's programs and 
driving up their costs. They have closed off many of the 
world's best sources of advanced technology to Iranian 
procurement efforts and have forced Iran to rely on 
technologies less sophisticated and reliable than would 
otherwise be the case and, critically, we have bought 
additional time.
    Despite the gains Iran has made, we do not consider it 
inevitable that Iran will acquire nuclear weapons deliverable 
by long-range missiles, but avoiding that highly destabilizing 
outcome will require the continued leadership of the United 
States and the concerted efforts of the international 
community, including the cooperation of Russia, China, and 
North Korea. We will consult closely with the committee as our 
efforts proceed.
    Thank you, Mr. Chairman.
    [The prepared statement of Assistant Secretary Einhorn 
follows:]

              Prepared Statement of Hon. Robert J. Einhorn

    Mr. Chairman, thank you for giving me this opportunity to discuss 
Iran's continuing efforts to acquire weapons of mass destruction and 
missile delivery systems, foreign assistance to those programs, and the 
status of U.S. efforts to halt them.
    Today Iran is undergoing important political developments. The 
United States welcomed the Iranian public's clear call for greater 
freedom and democracy in recent parliamentary elections. We hope that 
such encouraging developments are a sign of a transition to a more open 
and democratic society.
    However, as in any diverse society, there are many currents 
swirling about in Iran. Some are driving the country forward; others 
are holding it back. Despite the momentum toward democracy, freedom, 
and openness, most of the elements of Tehran's foreign policy about 
which we are most concerned--including the acquisition of destabilizing 
weapons systems--have not improved.
    Indeed, Iran's pursuit of weapons of mass destruction and ballistic 
missile delivery systems continues unabated, and has even accelerated 
in the last few years. Despite its formal adherence to international 
arms control and nonproliferation treaties, Iran maintains active 
programs to acquire nuclear, chemical and biological weapons as well as 
the long-range missiles to deliver them. Iran is seeking aggressively 
to acquire equipment, material, and technology from abroad in an effort 
to establish the capability to produce non-conventional weapons 
indigenously and thereby to insulate those weapons programs from 
outside pressures.
    Even if democracy succeeds in Iran, there is little to suggest that 
its quest for weapons of mass destruction and missile delivery systems 
will end. As long as Iran believes that its arch-rival Iraq is pursuing 
WMD, that U.S. forces in the region constitute a major threat, and that 
its own non-conventional programs bolster its aspirations for influence 
in the Gulf region and leadership in the Islamic world, there will be 
pressures in Tehran, whoever is in power, to persist on the dangerous 
course on which it is now headed. We will watch closely for any changes 
in Iranian proliferation policies as Iran's domestic evolution 
continues. But so far we have seen none.
    Iran's WMD and missile programs constitute a serious threat to the 
region and to U.S. interests more broadly. Impeding those programs has 
therefore been a top priority of U.S. policy. It is a subject we would 
like to take up with Iranian officials directly. But in the absence so 
far of a willingness in Tehran to establish an authoritative U.S.-Iran 
dialogue, we have had to rely almost exclusively on a strategy of 
seeking to deny Iran the material and technological wherewithal to 
acquire WMD and missiles. We have had a few public--and a number of 
private--successes in that effort. But as with any nonproliferation 
effort focused primarily on denial of technology, we have managed to 
slow Iran's programs, but we have not stopped them.

                    IRAN'S BALLISTIC MISSILE PROGRAM

    Iran has one of the developing world's most active and ambitious 
ballistic missile programs. It is important to recall, in this regard, 
that Iran was the first victim of Iraq's development of missiles and 
chemical weapons. But Iran's ballistic missile programs have long since 
gone beyond responding to Iraq, and now threaten much of the Middle 
East and soon could threaten locations more distant.
    Iran already has deployed hundreds of SCUD missiles and can now 
produce SCUDs indigenously. Not stopping at short-range missiles, 
however, Iran has conducted three tests of the 1,300 kilometer-range 
Shahab-3 missile, once in 1998 and twice this year, including just last 
month. As National Intelligence Officer for Strategic and Nuclear 
Programs Robert Walpole testified just two weeks ago, ``Tehran probably 
has a small number of Shahab-3s available for use in a conflict; it has 
announced that production and deployment have begun.'' In addition to 
the medium-range Shahab-3, Iran is working on longer-range missiles. 
Its defense minister has spoken of Shahab-4 and -5, claiming those 
rocket systems would be used solely as peaceful, space-launch vehicles 
(SLVs). But given that any SLV has inherent military missile capability 
and can relatively easily be adapted to that role, few knowledgeable 
observers take those claims at face value.
    Iran's acquisition of long-range ballistic missile delivery 
capability, coupled with its continued pursuit of nuclear weapons and 
other weapons of mass destruction, poses a significant threat to U.S. 
forces and friends in the region, and to regional stability generally.
    Iran's ballistic missile program is heavily dependent on assistance 
from other countries. North Korea has been a major supplier to Iran, 
transferring SCUDs, SCUD production technology, and No Dongs. While we 
do not believe Russia has transferred long-range missiles to Iran, we 
judge that wide-ranging assistance from Russian aerospace organizations 
and individuals has enabled Iran to make the Shahab-3 an improved 
version of the No Dong as well as to make substantial headway on 
longer-range missile systems. Chinese transfers to Iran's missile 
programs have largely been intended for tactical systems below the 
Missile Technology Control Regime control level or have been dual-use 
items not specifically covered on international control lists. But as 
we have told the Chinese many times, such transfers can make--and 
indeed have made--significant contributions to Iran's long-range 
missile programs.

                         IRAN'S NUCLEAR PROGRAM

    We remain convinced that Iran maintains an active nuclear weapons 
development program, despite its status as an NPT party. Among the 
persistent indicators that Iran is pursuing a nuclear weapons 
development program is the fact that Iran is attempting to obtain 
capabilities to produce both highly enriched uranium and plutonium--the 
critical materials for a nuclear weapon. Neither of these capabilities 
is necessary to meet Iran's declared desire to have a civil nuclear 
power program to generate electricity, which is itself suspicious in 
light of Iran's abundant oil resources.
    For the time being, Iran's nuclear program remains heavily 
dependent on external sources of supply. Because of this, the United 
States has played the leading role in developing and maintaining a 
broad international consensus against assisting Iran's foreign 
procurement efforts. We deny Iran access to U.S. nuclear technology and 
material, and all major Western suppliers have agreed not to provide 
nuclear technology to Iran.
    A number of supplier states have abandoned potentially lucrative 
sales to Iran's nuclear program. In 1997 China terminated work on a 
uranium conversion facility in Iran and agreed not to engage in any new 
nuclear cooperation with Iran after completing two small projects that 
posed no direct proliferation concern. As a result of efforts by Vice 
President Gore and Secretary Albright, Ukraine likewise took a major 
step when it determined that it would not supply electricity-generating 
turbines originally contracted for by a Russian firm and destined for 
the new Bushehr nuclear power plant in Iran. The Czech Government also 
recently made a decision not to supply components for the turbine hall 
of this plant.
    Russia remains the one significant exception to this virtual 
embargo on nuclear cooperation with Iran. The most visible nuclear 
cooperation between the two countries is Russia's construction of a 
1000-megawatt nuclear power reactor at Bushehr, Iran. We have opposed 
this project, not because we believe such a light-water reactor under 
International Atomic Energy Agency safeguards itself poses a serious 
proliferation threat, but because of our concern that the Bushehr 
project would be used by Iran as a cover for maintaining wide-ranging 
contacts with Russia nuclear entities and for engaging in more 
sensitive forms of cooperation with more direct applicability to a 
nuclear weapons program.
    While refusing to halt the power reactor sale, the Russians have 
argued that they are just as opposed as we are to an Iranian nuclear 
weapons capability. At the highest levels, they committed to limiting 
their nuclear cooperation with Iran to the Bushehr reactor project 
during the period of its construction.
    Despite these repeated assurances, we are aware that Russian 
entities--most of them subordinate to MINATOM, the Russian Ministry of 
Atomic Energy--have engaged in extensive cooperation with Iranian 
nuclear research centers that is outside the bounds of the Bushehr 
project. Much of this assistance involves technologies with direct 
application to the production of weapons-grade fissile materials, 
including research reactors, heavy-water production technology, and 
laser isotope separation technology for enriching uranium. Russian 
assistance to Iran's nuclear program has accelerated in the last few 
years and could significantly shorten the time Iran would need to 
acquire weapons-usable fissile material.

                    CHEMICAL AND BIOLOGICAL WEAPONS

    Iran's chemical weapons (CW) program is one of the largest in the 
developing world. Iran began its offensive program during the Iran-Iraq 
war in response to Iraq's use of CW. By 1987 Iran was able to deliver 
limited quantities of blister (mustard) and blood (cyanide) agents 
against Iraqi troops using artillery shells. Since then Iran's CW 
production capability has grown and become more sophisticated. It has 
already produced a number of CW agents, including nerve, blister, 
choking and blood agents. Despite its 1997 ratification of the CWC, we 
believe Iran's CW program continues and that it possesses a substantial 
stockpile of weaponized and bulk agent.
    Throughout the life of its CW program, Iran has sought the ability 
to produce indigenously more sophisticated and lethal agents. This 
trend toward self-sufficiency is worrisome, since it means that Iran 
could eventually become a supplier of CW-related materials to other 
nations.
    Over the past several years, Iran's procurement efforts have 
dwindled in countries of the Australia Group, the multilateral export 
control regime responsible for chemical and biological exports, as that 
Group's controls have become more effective. Instead, Iran has 
concentrated on suppliers in countries outside of the Australia Group. 
As Iran moves to suppliers outside the major industrialized countries 
and seeks less specialized (and hence less strictly controlled) items, 
our ability to stop Iran's CW-related procurement efforts has also 
decreased.
    Iran has been in the vanguard of efforts by some countries to 
weaken multilateral export controls, especially on dual-use 
commodities. It has instigated attempts to delegitimize and even to 
abolish the nonproliferation export control regimes. The United States 
has worked closely with our partners in those regimes to rebut the 
Iranian arguments and to strengthen those regimes in the face of these 
efforts to weaken them.
    We believe that Iran also has an offensive biological weapons 
program at least since the Iran-Iraq War, notwithstanding the fact that 
it has been a party to the Biological Weapons Convention since August 
1973. The pace of Iran's biological weapons program probably has 
increased since the 1995 revelations about the extent of Iraq's 
biological weapons program.
    While we assess that the Iranian BW program is largely still in the 
research and development stage, we believe Iran already holds some 
stocks of biological agents and toxins. It has considerable expertise 
in the infrastructure needed to produce basic BW agents, and can make 
some of the hardware needed to manufacture those agents. Iran conducts 
top-notch legitimate biomedical research at various institutes, which 
we suspect also provide support to the BW program. It appears that Iran 
is actively seeking to acquire materials, equipment and expertise from 
foreign suppliers--primarily from entities in Russia and Western 
Europe.

                         U.S. POLICY RESPONSES

    In view of the serious risks to U.S. interests posed by Iran's WMD 
and missile programs, we have given high priority to impeding those 
programs and have sought to do so through a wide variety of means. We 
have worked to strengthen and tighten the multilateral export control 
regimes, thereby denying Iran and other proliferators access to most of 
the world's best sources of sensitive technology and forcing them to 
resort to elaborate and uncertain covert procurement methods that can 
result in slowing the pace, driving up the costs, and reducing the 
quality of their acquisitions. With Iran actively looking for weak 
links in the chain of control, we have provided substantial assistance 
to countries that are potential targets of Iranian procurement efforts 
in order to help them bolster their national export control systems and 
their border security. When we have received information about 
troublesome transactions involving Iran's weapons programs, we have 
been able on a number of occasions to intervene diplomatically and 
persuade the governments of supplying countries to step in and halt a 
pending transfer.
    To help secure sensitive materials and know-how at their source, we 
have provided large-scale support for Russia's efforts to protect, 
store, and account for its nuclear materials and have funded civilian 
scientific work by over 20,000 former Soviet weapons specialists to 
reduce their incentives for assisting countries like Iran. We have also 
sought to strengthen international arms control arrangements to promote 
our nonproliferation goals--by supporting the International Atomic 
Energy Agency's strengthened safeguards system, promoting an effective 
Chemical Weapons Convention inspection system, and pressing for a 
protocol to enhance confidence in compliance with the Biological 
Weapons Convention.
    Impeding Iranian non-conventional procurement efforts has figured 
prominently in recent years in our bilateral relations with China, 
North Korea, and Russia. As noted earlier, China agreed to phase out 
all of its nuclear cooperation with Iran, even cooperation carried out 
under IAEA safeguards. We believe the Chinese have made good on this 
pledge. In 1997 we imposed sanctions on seven Chinese entities for 
providing dual-use chemicals and chemical production equipment and 
technology to Iran's chemical weapons program. Subsequently, Chinese 
authorities took steps to tighten their system of chemical controls, 
although enforcement remains uneven. Our current efforts with China 
focus primarily on missile exports. We have held several rounds of 
talks this year aimed at encouraging Beijing to augment its missile-
related export control system and prevent Chinese entities from 
transferring equipment and technology that contribute to Iranian 
missiles capable of delivering nuclear weapons. We have made progress, 
but more work remains.
    Halting missile-related exports, to Iran and other countries, is a 
high priority of our engagement with North Korea. In our several rounds 
of missile talks with the North Koreans, we have repeatedly sought to 
gain its agreement to ban all missile exports and we will continue to 
do so. We have also made clear that continued missile exports would 
subject them to additional economic sanctions (which we have imposed 
six times on the DPRK, three for transfers to Iran), and that such 
sanctions would place a major obstacle in the way of economic 
normalization between the U.S. and DPRK.
    Assistance by Russian entities to Iran's missile and nuclear 
programs has been a persistent problem in U.S.-Russian relations for 
over half a decade. Both the President and the Vice President, as well 
as the Secretaries of State, Defense, and Energy, and numerous other 
senior Administration officials, have engaged on this issue on an 
almost continuous basis. Every Presidential Summit meeting, and every 
meeting of the U.S.-Russian Bi-national Commission, as well as numerous 
letters, telephone calls, and meetings in between, has placed these 
nonproliferation concerns at the top of the agenda. The Vice President, 
in particular, using the institutional machinery afforded by the Bi-
national Commission, has played a central role in pursuing such 
nonproliferation goals as fissile material security, the purchase of 
high enriched uranium, disposition of plutonium, and the destruction of 
chemical weapons--all of which are crucial to denying Iran and other 
states of concern access to these WMD-related materials. These efforts 
began in the very first year of the Administration, when the Commercial 
Space Launch Agreement was signed by the Vice President and the Russian 
Prime Minister as an incentive to Russian aerospace entities to forgo 
dangerous missile proliferation.
    In our bilateral engagement, we have stressed the high stakes 
involved in resolving the Russia-Iran proliferation issue, both for the 
stability of the Middle East and the world at large and for the 
bilateral relationship. We have made clear that stopping highly 
sensitive cooperation with Iran would expand opportunities for mutually 
beneficial and potentially lucrative cooperation between the two 
countries, including in the areas of commercial space and nuclear 
energy. But we have also stressed that failure to solve the problem 
would inevitably create obstacles to such cooperation. So far we have 
used the Administration's executive authority to impose penalties on 10 
Russian entities for assisting Iran's nuclear or missile programs.
    Our intensive efforts with the Russians over the last few years 
have produced some significant positive steps. We are beginning to see 
the emergence of a more effective Russian effort at export control. 
Russia passed a new export control law in 1999 providing legal 
authority to control the export of any item that could contribute to a 
program of proliferation concern. It has reorganized export control 
responsibilities within the government to make the bureaucracy more 
effective in implementing Russia's laws and policies. At U.S. urging, 
it has instituted internal compliance programs in key Russian entities, 
and so far over 500 firms manufacturing items of proliferation concern 
have received training in their export control obligations. It has 
established seven export control working groups with the U.S. in such 
areas as law enforcement and dual-use licensing to help strengthen the 
Russian system. It has carried out investigations of problem cases we 
have brought to its attention and, in a number of those cases, halted 
Russian entities' cooperation with Iran, enabling us last April to 
announce our intention to lift U.S. penalties against two of them.
    While we have imposed penalties on organizations engaged in 
sensitive cooperation with Iran, we have also made important headway by 
holding out benefits for responsible behavior. In this connection, we 
have used the commercial space launch quota as an incentive to 
encourage important changes in Russia's legal and regulatory 
environment, and to make improvements in its export control system and 
practices. Moreover, our Russian partners in the International Space 
Station and in the major U.S.-Russian commercial space launch joint 
venture well understand the value of their profitable cooperation with 
us, and they are on guard to avoid the kind of interactions with 
countries of concern that could put that cooperation in jeopardy. It is 
clear that key players in the Russian government, such as the Russian 
Aviation and Space Agency and the new Department of Export Controls of 
the Ministry of Economic Development and Trade, see an important stake 
in stopping assistance to Iran's non-conventional programs and are 
working hard to get their arms around a very difficult challenge.
    However, Russian enforcement of its export control laws and 
policies has been very uneven. While some Russian aerospace entities 
have severed their cooperation with Iran, other individuals and 
entities have been far too willing to take their place. The situation 
is even worse in the nuclear area. Unlike in the aerospace field, where 
many of the entities assisting Iran have little relationship to the 
Russian government, almost all nuclear cooperation with Iran is carried 
out by MINATOM or one of its many subsidiaries and affiliates. We have 
made clear to the Russians that we will not go forward with 
collaboration on advanced power reactors or other new cooperation in 
the nuclear area until our concerns are resolved.
    Clearly, many of the remaining problems involve shortcomings of the 
relatively new Russian system of export control. Even with greater 
resources and the best of intentions, it would be hard for Moscow 
authorities to detect and stop all attempts to circumvent Russian 
controls. But equally clearly, part of the problem is a lack of 
determination in Moscow. We are convinced that, if Russia's leaders 
gave the matter sufficient priority, Iran's nuclear and missile 
procurement efforts in Russia could be stopped.
    Why does Moscow not seem to give the matter the priority we do? The 
answer is complicated. Part of the explanation seems to be that Russian 
entities that no longer receive adequate budgetary support from the 
central government have strong incentives to export. The number of 
Russian entities with technical experts out of work is overwhelming, 
and they will do virtually anything to stay afloat. Russia also 
believes it has strategic reasons for not wanting to jeopardize 
bilateral relations with Iran. Moreover, the Russians tend to take a 
more narrow view of their nonproliferation responsibilities than we do 
and are more inclined to support transactions we would regard as too 
risky, especially if they do not violate any Russian international 
treaty obligations.
    Whatever the mix of motives for a less-than-fully-resolute approach 
to the challenge of stopping dangerous Russian interactions with Iran, 
we do not doubt the Russians when they say their interests would be 
harmed at least as much as ours by Iran's acquisition of nuclear 
weapons deliverable by long-range missiles. But if the Russians believe 
that the nuclear and missile cooperation now underway will not actually 
contribute materially to, and accelerate, Iran's acquiring such a 
capability, they are engaging in wishful or shortsighted thinking.
    Recently we have seen some encouraging signs. At their July meeting 
at the Okinawa G8 summit, President Putin assured President Clinton 
that he would take personal responsibility for ensuring that Russia's 
laws and commitments with respect to these nonproliferation matters are 
faithfully carried out. Subsequently, when provided with information 
that Russia's Yefremov Institute was providing Iran with laser isotope 
separation technology for enriching uranium, Russian authorities 
suspended the transaction pending a thorough investigation of its 
implications. We hope that this action will be a forerunner of concrete 
and decisive steps to halt assistance by Russian entities to missile 
and nuclear programs in Iran.

                       IRAN NONPROLIFERATION ACT

    Recently Congress gave us new legislation intended to impede Iran's 
WMD and missile programs--the Iran Nonproliferation Act of 2000. The 
Act establishes new criteria--legal standards and procedures--for 
evaluating activities of proliferation concern and imposing 
nonproliferation sanctions. The Administration has made significant 
progress toward completing the review of the intelligence material 
necessary to make the report to Congress required by the Act. However, 
we have found that the information that must be reviewed in order to 
make the required report is considerably more detailed and voluminous 
than was contemplated when the bill was passed, and it has therefore 
been impossible for us to submit our initial report by the dates 
specified in the Act. A more detailed explanation of where we stand on 
this matter has already been conveyed to the Committee.

                               CONCLUSION

    In conclusion, impeding Iran's WMD and missile delivery systems 
will remain at the top of the U.S. national security agenda for some 
time to come. We cannot predict the direction political events in 
Tehran will take, but should Iranian authorities accept the U.S. offer 
of an official bilateral dialogue, nonproliferation will be a key 
focus. We would seek in those discussions to persuade the Iranians that 
their legitimate security and other broad national interests would best 
be served by verifiably and reliably renouncing WMD and the long-range 
ballistic missiles that can deliver them.
    In the meantime, we have no alternative but to continue an active 
strategy of seeking to thwart Iranian efforts to procure the material 
and technologies they need for their nonconventional programs. We will 
use a variety of means to pursue that strategy, including strengthening 
multilateral regimes, carrying out energetic diplomatic efforts with 
key supplier governments, and, when warranted, utilizing our legal and 
other authorities to penalize those responsible for assisting the non-
conventional programs of states of proliferation concern.
    By the standards one must judge nonproliferation efforts, our 
policies with respect to Iran have been effective. They have succeeded 
in slowing and complicating Iran's programs and driving up their costs. 
They have closed off many of the world's best sources of advanced 
technology to Iranian procurement efforts, and forced Iran to rely on 
technologies less sophisticated and reliable than would otherwise be 
the case. And critically, we have bought additional time. Despite the 
gains Iran has made, we do not consider it inevitable that Iran will 
acquire nuclear weapons deliverable by long-range missiles. But 
avoiding that highly destabilizing outcome will require the continued 
leadership of the United States and the concerted efforts of the 
international community, including the cooperation of Russia, China, 
and North Korea. We will consult closely with this Committee as our 
efforts proceed.

    Senator Brownback. Thank you, Mr. Einhorn, although I come 
to the exact opposite conclusion that you do, that our efforts 
have not been very successful at all in impeding their 
development of weapons of mass destruction and proliferation 
that have taken place in Iran, and particularly in regards to 
Russia and the Russian assistance that has been provided that 
we heard from Mr. Lauter's testimony what has occurred with 
Iran, so I think our standards of success and measurements of 
success are substantially different here.
    Mr. Einhorn, the so-called Gore-McCain act calls for 
sanctions on anyone who assists Iran in acquiring destabilizing 
numbers and types of advanced conventional weapons. The Foreign 
Assistance Act of 1961 also calls for sanctions on countries 
that transfer weaponry to terrorist nations.
    Now, since 1992, Russia has supplied a large number of 
conventional armaments to Iran. Why have neither of these 
sanction laws been applied to any aspect of this enormous 
volume of trade?
    Mr. Einhorn. Mr. Chairman, we have, in fact, been very 
active in implementing both of the laws you mentioned, 
including the law that deals with provision of lethal military 
equipment to state sponsors of terrorism.
    As the committee is aware, we have pursued these questions 
actively with the governments concerned, the supplier 
governments concerned, and in a number of cases imposed 
penalties on the entities responsible for these transactions, 
and in the process have been able to persuade supplier 
governments to adopt new controls that have limited further 
future shipments of this lethal military equipment, so we have 
taken advantage of the law and used it as a tool to try to 
reduce lethal military equipment sales to these state sponsors 
of terrorism.
    Senator Brownback. Have you implemented that law on Russia?
    Mr. Einhorn. We have, in fact, done so. As the committee is 
aware, I believe, we have invoked that law with respect to 
Russian transfers of conventional equipment to Syria and a 
number of the----
    Senator Brownback. Have you done it toward Iran?
    Mr. Einhorn. I will have to check the record on Iran, but 
there have been a number of cases, not necessarily involving 
Russia, in addition to the Syria case I mentioned before, where 
we have utilized the law to extract new commitments in the area 
of nonproliferation.
    Senator Brownback. I believe the record will show that you 
have used it on Syria, but you have not used it on Iran.
    Mr. Einhorn, if domestic United States law requires the 
imposition of sanctions, do you think that the executive branch 
can nevertheless avoid imposing sanctions if it has concluded 
an agreement with a foreign nation to do so?
    Mr. Einhorn. Well, it depends on the particulars of the 
sanctions laws. The purpose of the sanction laws is a good 
purpose. It is to change behavior. It is to encourage 
governments such as Russia, such as North Korea, such as China, 
to practice responsible export behavior. We have utilized the 
law for that purpose.
    Sometimes it has involved actually imposing the sanctions, 
but often the threat of the imposition of sanctions has been as 
effective or more effective than the actual imposition. We have 
used the leverage that the law has provided to encourage more 
responsible behavior, certainly in the case of China and in the 
case of Russia.
    Senator Brownback. If domestic law required imposition of 
sanctions for an action, would it be appropriate for the 
executive branch to commit to a foreign nation to avoid such 
penalties even if the foreign nation made commitments of its 
own?
    Mr. Einhorn. Well, let us take the Iran Nonproliferation 
Act, for example. Here, there are cases where, if an entity has 
provided reportable items to Iran, there is an obligation by 
the administration to report that fact to the Congress, but if 
it is determined that that transfer was made under the 
guidelines of multilateral export control regimes, duly 
authorized by a government that is a participant in those 
regimes, then that transfer is exempt from any penalties. That 
is an element of the Iran Nonproliferation Act. So there is a 
case where the administration is not compelled to impose 
sanctions under the law.
    Senator Brownback. Well, I am not sure I have understood 
your answer completely, and I think it can come with a yes or 
no. Let me try this again. If domestic law required impositions 
of sanctions for an action, would it be appropriate--
appropriate--for the executive branch to commit to a foreign 
nation to avoid such penalties, even if the foreign nation made 
commitments of its own?
    So in other words, we have a domestic law that requires the 
imposition of a sanction, and then the administration 
negotiates a separate agreement that they think, well, OK, 
maybe this is the way we want to go, regardless of what the law 
says. Would that be appropriate?
    Mr. Einhorn. If the law requires the imposition of 
sanctions, then sanctions must be imposed, but if the law 
provides, for example, a waiver authority that suggests that 
the penalties may be waived if in the administration's judgment 
it can extract new commitments from a foreign government, then 
that is entirely permissible, and that in fact has been done on 
a number of occasions, but it would depend upon the law.
    Senator Brownback. All right, but if it does not have the 
waiver authority, it would not be appropriate.
    Mr. Einhorn. No, clearly, you know, one has to implement 
the law, whatever it says.
    Senator Brownback. Is Russia abiding by its 1995 commitment 
not to transfer conventional arms to Iran?
    Mr. Einhorn. The commitment that Russia made at the time 
was not to engage in new conventional arms contracts with Iran. 
It agreed that it would complete shipments under existing 
contracts in a limited period of time.
    We are having discussions with the Russian Government now 
about the length of time it would need to fulfill its existing 
contracts, but in terms of the specifics of current 
transactions, it would be very difficult to comment in detail 
in an open session like this.
    Senator Brownback. So if I am understanding you, you are 
saying that it agreed to make shipments of weapons, and it is 
needing more than 5 years to get this done, and you are letting 
them go with that, saying OK, you can go ahead and keep 
shipping these because you are deeming these part of some 
agreement prior to 1995?
    Mr. Einhorn. Mr. Chairman, I am not saying we are letting 
these go. What I am saying is that we have sought from the 
Russian Government information about the shipments they would 
like to continue to make under existing contracts, that they 
have not been able to make by the time specified in our 
understanding.
    Senator Brownback. And you will not comment in open session 
as to whether there are additional sales that are taking place 
that were not committed to prior to 1995?
    Mr. Einhorn. I think it is best to deal with that issue in 
closed session, and I would be happy to do that.
    Senator Brownback. I hope you are pushing the Russians 
quite hard on the issue. Five years would seem to be a 
sufficient period of time for them to complete transactions. 
Now, I do not know the nature of which these you are commenting 
about.
    And Mr. Einhorn, my whole problem here is, it seems as if 
from what Mr. Lauder described there is an aggressive 
development program continuing to take place in Iran with 
Russian-supplied technology, information, and then we also have 
conventional areas, and the administration is seemingly looking 
the other way in spite of a very clear desire by the Congress, 
laws that have been signed, reports that are required, for you 
to keep the Congress informed, that the Congress has stated 
this is not the will of the people, and that you have seemed to 
conclude your own sidebar agreements and the development 
continues to take place, with alarming speed and progress, 
alarming.
    That is not a satisfactory situation, certainly from 
Congress' perspective and, more importantly, from the United 
States' overall security perspective, and in dealing with a 
country such as Iran. There are an alarming set of factors that 
are lining up here that lead to quite a troubling conclusion.
    Mr. Einhorn. Mr. Chairman, I would agree with you that the 
situation with respect to Iranian procurement efforts in Russia 
is not satisfactory. The Russians know our frustration and 
disappointment about their response, but I would take issue 
with your characterization of the administration looking the 
other way. We have faced this issue quite squarely, and this 
has been a subject of continuing engagement between us and the 
Russians, and we have made some progress.
    I have mentioned some of the elements of progress in my 
statement earlier. The Russians have come quite a distance in 
setting up an export control system. We have concrete evidence 
that entities that had been engaged in missile cooperation with 
Iran have stopped their cooperation. We see signs of 
improvement, but the record of enforcement is spotty, and it is 
uneven. It is not satisfactory as far as we are concerned, and 
we will continue to pursue it.
    On the nuclear side, the situation is even worse, and we 
have to work at that in a very persistent way to make sure that 
Russian assistance to Iran's nuclear program is stopped, but in 
terms of the bottom line, I think it is important to step back 
and take a look at some of these Iranian programs.
    Iran has been seeking nuclear weapons for quite a long 
time. They have worked at it very, very aggressively. We have 
succeeded, the United States has succeeded in dissuading all 
nuclear suppliers other than Russia from continuing to provide 
nuclear assistance to Iran, every one, and we have had 
important successes, whether it is with China, or Ukraine, or I 
can go on and on and on, but it is only Russia that is 
continuing to do that, and we have to work with Russia until 
they are prepared to stop all nuclear cooperation with Iran.
    In the missile area also, we have been very aggressive in 
trying to clamp down. Using the missile technology control 
regime, it has forced Iran to turn to Korea, with less 
sophisticated technology than it could otherwise get.
    What the Shahab-3 is, it is a No Dong, which has been 
improved with the addition of Russian technology, but this is 
not the missile that Iran would have today if it were not for 
U.S. efforts. Without U.S. efforts, Iran would be much further 
along in its nuclear weapons program. It might even have 
nuclear weapons today, and it would be much further along in 
its missile program. We would not be talking about basically an 
improved No Dong that could go medium ranges. We would be 
talking much more reliable and sophisticated missiles. U.S. 
efforts really have prevented those developments from 
occurring.
    Senator Brownback. And without Russian assistance the 
Iranians would not be nearly as far along as where they are 
today, and those were things that are specifically the concern 
of laws that have been passed by the Congress and signed by the 
administration, and then the negotiations between Vice 
President Gore and Chernomyrdin.
    I think this is not satisfactory, particularly as regards 
the topic of this hearing, Russian assistance to the 
Ukrainians, which is where we are having the most problem, and 
I think some of the least progress taking place.
    Mr. Lauter, one final question and then I am going to turn 
the podium over to Mr. Smith. Some of the DCI's most recent 
section 721 report states that Russia, ``remains an important 
source of conventional weapons and spare parts for Iran.'' That 
report covered activities through December 31, 1999. During 
this year, has Russia engaged in any conventional arms-related 
transfers to Iran?
    Mr. Lauter. Russian officials stated publicly earlier this 
year that Russia continues to transfer conventional arms to 
Iran under previously signed contracts, and that statement is 
consistent with our information.
    Senator Brownback. Can you be any more specific of what 
transfers have taken place this year?
    Mr. Lauter. I do not think I have any detailed unclassified 
figures that I can give you right now on that. I would be happy 
to provide that later, certainly in a classified forum for the 
committee. I do not think I have any figures I can pass over 
today.
    Senator Brownback. Senator Smith.
    Senator Smith. John, I know that you have done some work on 
the Yugoslavian situation. I have just been handed a note that 
says the Serbian opposition has stormed the parliament building 
and reportedly has taken control of the state media. Fires are 
raging. Milosevic is nowhere to be seen, and general chaos is 
underway--unrelated subject.
    Bob, you mention the sanctions that the U.S. Government has 
imposed on specific Russian companies and firms for sharing 
technology with Iran. Do you believe that these companies or 
entities acted independently, or without the knowledge or 
consent of the Russian Government in the first place?
    Mr. Einhorn. Senator Smith, I think it varies from case to 
case. As I pointed out earlier, most of the nuclear assistance 
being provided by Russia to Iran is coming from subsidiaries, 
affiliates of the Ministry of Atomic Energy in Russia, so I 
think it would be hard to imagine that Russian Government 
officials, and officials in the nuclear establishment, were not 
at least knowledgeable of some of these interactions.
    Senator Smith. If this is contrary to Russia's own national 
security interests, what was the motive? Was it hard currency?
    Mr. Einhorn. That is an important component of it. What has 
happened, Senator, is that Russian entities are no longer 
receiving the kind of budgetary support from the central 
government that they used to, and as a result they are pretty 
hard up, and they are looking for ways of staying in business, 
and so some of them have very strong incentives to export 
equipment, know-how, and so forth, so I think economic 
explanations are a very important part of the problem.
    Another explanation is that the Russian export control 
system is still in its early stage. It is not fully effective, 
especially at the enforcement end. It needs a lot more work 
before it can effectively police Russian nuclear and missile-
related exports.
    Senator Smith. You mentioned Mr. Putin's promises to 
President Clinton. Have you seen any results from those 
promises? Is, in fact, his administration doing a better job? 
Are they getting--do they have control of their government? Do 
they now have the cash? With higher oil prices he's 
consolidating his power and the ability to actually protect 
their own national interest.
    Mr. Einhorn. Senator, I think it is probably too early to 
judge whether the Putin regime will be more effective in this 
area than its predecessors. There are some encouraging signs, 
his statement to President Clinton in Okinawa that he is going 
to take personal responsibility for these matters, also the 
decision by the Russian Government to suspend this contract 
Yefremov Institute and Iran on providing laser isotope 
separation technology to Iran. They say they will suspend that 
while they conduct a thorough investigation of the implications 
of that transfer.
    Senator Smith. And the whole point of that is to enhance 
the yield of a nuclear bomb.
    Mr. Einhorn. The laser isotope separation technology is a 
technique for enriching uranium to weapons grade. That is what 
we believe the equipment and technology was intended for.
    Senator Smith. Is the administration going to certify to 
Congress that no entities subordinate to the Russian Space 
Agency are providing missile systems to Iran?
    Mr. Einhorn. Under the Iran Nonproliferation Act, as you 
know, Senator, we will be providing a report to the Congress 
that provides information on entities that provide certain 
transfers to Iran. We regret that we are not in a position to 
provide the report at this stage. We have promised to work 
toward December 1 in order to get you that information.
    But on the specific question you asked me, whether we feel 
we can certify that all of the subsidiaries of the Russian 
Space Agency have not engaged in missile-related cooperation 
with Iran, I doubt very much we are going to be able to make 
that assertion. In fact, I feel confident that we will have to 
report to you that a number of the entities subordinate to the 
Russian Aviation Space Agency have in fact provided support for 
Iran's missile program, and we will have to act, then, under 
the law.
    Senator Smith. And the law requires that you then begin 
withholding funds for the purpose of constructing the 
international space station, does it not?
    Mr. Einhorn. The law has provisions regarding extraordinary 
payments to the international space station project, that is 
true. There are certain special provisions affecting items such 
as support for crew safety, for example, which have to be dealt 
with, and we will meet the requirements of the law in dealing 
with that question.
    Senator Smith. Clearly, the State of Israel has reason to 
be alarmed at missiles being paraded in the streets of Iran 
that say, ``Israel should be wiped off the map.'' What other 
states in the Middle East are likely to bear the brunt of an 
Iranian missile?
    Mr. Einhorn. Well, I think one has to look back at the 
Iran-Iraq war of the 1980's to recognize that the critical 
rivalry in that part of the world is between Iraq and Iran. I 
believe that is the main reason, I mean, the concern about a 
potential future threat from Iraq that motivates Iran to want 
to have missiles capable of delivering these WMD capabilities, 
but there are other countries in the region that are concerned 
about Iranian intentions.
    There are countries on the southern shore of the Persian 
Gulf who are concerned about Iran's intentions and about Iran's 
acquisition of WMD and missiles, and we consult with them quite 
frequently, and there is concern in the gulf and, as you 
mentioned, you know, Israel is concerned as well about these 
developments.
    Senator Smith. When you think back to the bloody and 
duration of the Iran-Iraq war, had these been available then 
they would likely have been used, would they not have? I mean, 
they used chemical weapons on each other.
    Mr. Einhorn. Yes. I mean, missiles were used. Iraq had 
missiles at the time, and used them. Iraq used chemical 
weapons. There was some small response by Iran at the time, but 
Iran was not heavily into the chemical weapons business then, 
but I think that is right, if these capabilities had been 
further advanced at that time, there would have been a real 
threat that they would have been employed on a much larger 
scale.
    Senator Brownback. Mr. Lauter, some have suggested that 
Iran is changing because of so-called moderates who are being 
elected to office. How are decisions made in Tehran regarding 
Iran's WMD program? Are they made by hardline clerics, or by 
elected government officials?
    Mr. Lauter. I think, Senator, when we look at the 
institutions in Iran that are most involved in the process of 
weapons of mass destruction and missiles, those are probably 
institutions that are more dominated by the conservatives. That 
said, we assess that Iranian political factions across the 
board are united largely in their support for Iran's weapons of 
mass destruction and ballistic missile programs. These programs 
seem to be viewed across the political spectrum as an integral 
part of Iranian national security, and part of Iran's right of 
self-defense.
    Senator Brownback. So in your view has President Khatemi 
moderated his country's interests in obtaining these ballistic 
missiles, or is it really just generally felt by the Iranian 
people that they need these for their own defense?
    Mr. Lauter. I think in our sense, in looking at what has 
occurred and at President Khatemi's statements that he has not 
appeared to slow down the pace of the ballistic missile 
program. Since he has taken office we have actually witnessed 
those three tests of the Shahab-3 that we mentioned earlier, 
and he himself has been public in his praise of the 
accomplishment of the 1998 test.
    Senator Brownback. Gentlemen, I believe that concludes the 
questions, and we thank you very much for your participation.
    Should other colleagues have questions, we will leave the 
record open for a period of time, and we would appreciate 
response should questions be put to you. Again, we thank you, 
and all who have attended here today, and this public meeting 
is adjourned.
    [Whereupon, the public meeting was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                 The American Jewish Committee,    
    Office of Government and International Affairs,
                                 1156 Fifteenth Street, NW,
                                   Washington, DC, October 3, 2000.

The Honorable Gordon Smith
Chairman, Subcommittee on European Affairs,
Committee on Foreign Relations,
U.S. Senate, Washington, DC.

    Dear Chairman Smith:

    On behalf of the American Jewish Committee, I am writing to applaud 
you and Chairman Brownback of the Subcommittee on Near Eastern and 
South Asian Affairs for convening a joint subcommittee hearing this 
Thursday, October 5, 2000, on the transfer of dangerous Russian 
technologies and strategic weapons capabilities to Iran.
    The American Jewish Committee, which has provided U.S. policy-
makers with independent research on Iran's weapons programs since 1995, 
urges a strong U.S. response to stem the flow of foreign technology and 
supplies to Iran. Such transfers are used by Iran to enhance its 
nuclear, biological, chemical, and conventional weapons programs, a 
clear threat to the security of the United States and its allies. The 
United States must remain vigilant in its efforts to restrict the 
proliferation of the sophisticated technology necessary for Iran to 
advance its strategic weapons programs and to discourage those who 
trade with Iran from easing restrictions on dual use technology that 
could be employed to enhance Iran's weapons capabilities.
    Despite the appearance of political change in Iran, the Islamic 
Republic continues to sponsor international terrorism, remains strongly 
opposed to Arab-Israel peace efforts, and engages in efforts to smuggle 
and develop weapons of mass destruction and delivery systems that could 
reach Israel and Europe. Of particular concern is Russia's cooperation 
with Iran in recent years in the development and acquisition of nuclear 
and other nonconventional weapons technologies, and Iran's ballistic 
missile program.
    In furtherance of the subcommittees' efforts, I am enclosing copies 
of AJC's June 2000 report entitled ``Iran and Weapons of Mass 
Destruction.'' I respectfully request that this report be distributed 
to the members of both the Subcommittee on Near Eastern and South Asian 
Affairs and the Subcommittee on European Affairs, and that the report, 
with this letter, be made a part of the record of the October 5 joint 
subcommittee hearing.
    Thank you for your consideration of our request and our views on 
this important matter.
            Sincerely,
                               Jason F. Isaacson, Director.

                  Iran and Weapons of Mass Destruction

                           (By W. Seth Carus)

                                IN BRIEF

    In August 1998--as much as ten years ahead of U.S. intelligence 
predictions--Iran tested the Shahab-3, a medium-range ballistic missile 
capable of hitting targets in Israel, Saudi Arabia, and Turkey. Iran 
may now possess an arsenal of more than 400 ballistic missiles of 
various ranges.
    Iran is also pushing the development of nuclear, biological, and 
chemical weapons of mass destruction deliverable by missile. Although 
lacking the infrastructure for an indigenous nuclear weapons program, 
Iran could acquire nuclear weapons in a relatively short time by 
purchasing fissile materials or even by stealing one or more finished 
weapons from the former Soviet Union. Little is known about Iran's 
biological weapons program except that Iran has sought to hire 
scientists formerly associated with the Soviet program. Experts believe 
that Iran now has the most active chemical warfare program in the 
developing world.
    In the past, the United States has had considerable success in 
delaying Iran's arms buildup. Its current policy options include those 
designed to further delay Iran's progress by denying it the foreign 
technology and technical expertise it requires through various arms 
control and export control programs. Another class of options are those 
designed to deter Iran's ultimate use of weapons of mass destruction, 
including theater missile defenses and consequence management.

                                 ______
                                 

                  Iran and Weapons of Mass Destruction

    On August 4, 1998, Iran launched the Shahab-3, a seventeen-ton 
medium-range ballistic missile (MRBM) capable of carrying a 1.2-ton 
payload an estimated 1,300 kilometers.\1\ Only eighteen months before, 
a senior U.S. intelligence official had told Congress that Iran might 
take as long as ten years to acquire a missile with such a long 
range.\2\ After the test launch, the U.S. government recognized that 
``the Shahab-3 significantly alters the military equation in the Middle 
East by giving Tehran the capability to strike targets in Israel, Saudi 
Arabia, and most of Turkey.'' \3\ The Shahab-3 became operational in 
early 2000.\4\
    Iran's development of the Shahab-3 is significant for two reasons. 
First, it gives Iran a delivery system capable of striking every 
important U.S. ally in the region, including Egypt, Israel, and Turkey. 
Second, the system was clearly designed to deliver weapons of mass 
destruction. Iran currently has active programs to develop nuclear, 
biological, and chemical (NBC) weapons. Although many of these programs 
began in the early 1980s, during Iran's long war with Iraq, the pace of 
development significantly accelerated in the early 1990s.
    Iran's efforts to develop these weapons are having a significant 
impact on the strategic environment in the entire Middle East. In 
addition to undermining international nonproliferation norms, these 
programs pose a direct military threat to U.S. friends and allies in 
the region and to U.S. military forces deployed there. Significantly, 
the Iranians appear to have accelerated their work on NBC weapons and 
associated delivery systems in recent years. Some analysts appear to 
believe that Iran would use its NBC weapons and missiles only if the 
survival of the regime were in question. Unfortunately, the limited 
available evidence calls into question that thesis. Iran's storage of 
chemical weapons on Abu Musa, an island in the Persian Gulf off the 
coast of Dubai, suggests that Tehran would use such weapons long before 
the regime's security was in doubt.\5\
``. . . weapons of mass destruction are a necessary component of 
        defense and a high priority.''
    The development of NBC weapons and associated delivery systems has 
significant support in Iran. George Tenet, Director of Central 
Intelligence, noted this in testimony to Congress earlier this year: 
``[Iran's] reformists and conservatives agree on at least one thing: 
weapons of mass destruction are a necessary component of defense and a 
high priority.'' \6\

                          NBC WEAPONS PROGRAMS

    Iran's progress in developing NBC capabilities varies considerably 
from program to program. Lack of money, difficulties in integrating 
complex programs, and constraints imposed by Western technology-
transfer controls have slowed the programs. The chemical weapons 
program appears considerably more advanced than the nuclear and 
biological programs. Although Iran has made considerable progress in 
developing ballistic missiles, it is less clear that it has developed 
missile delivery systems for its existing chemical or biological 
agents. Nevertheless, unless significant changes occur in Iran, it is 
only a matter of time before Iran has an effective arsenal with 
deliverable nuclear, biological, and chemical weapons capable of 
reaching Israel and other U.S. allies in the region.

                            NUCLEAR WEAPONS

    Since the early 1980s, U.S. government officials have worried that 
the clerical regime in Tehran was bent on acquiring the infrastructure 
needed to build a nuclear weapon. These concerns became more acute in 
the early 1990s. A 1997 Arms Control and Disarmament Agency report gave 
the following assessment of Iran's nuclear activities: ``Although 
Iran's rudimentary program has apparently met with limited success so 
far, the U.S. believes Iran has not abandoned its efforts to expand its 
nuclear infrastructure to support nuclear weapon development.'' \7\ In 
early 1999, Director of Central Intelligence Tenet testified that Iran 
``seems to be pushing its [nuclear] program forward.'' \8\
    Numerous estimates, many unduly pessimistic, have been made 
regarding the time required for Iran to acquire nuclear weapons. In 
1992, one U.S. government agency reportedly calculated that Iran was 
eight to ten years from acquiring a nuclear weapon. Press reports in 
1995 suggested that some Israeli experts thought that Iran would cross 
the nuclear threshold within five years. The most credible estimate was 
provided in January 1995 by U.S. Secretary of Defense William Perry and 
Israeli Prime Minister Yitzak Rabin, who estimated that Iran would need 
seven to fifteen years to acquire a nuclear weapons capability.\9\ That 
implied acquisition between 2002 and 2010. In contrast, Gen. Anthony C. 
Zinni, commander, Central Command--and thus responsible for U.S. 
military forces in the Middle East--believes that Iran will acquire a 
nuclear weapon in the next few years.\10\
    The Iranian effort to acquire nuclear weapons has been hampered by 
an inadequate technical base. According to the Defense Department:

        At this stage, Iran's scientific and technical base remains 
        insufficient to support major nuclear programs. The Iranians 
        recognize their dependence on foreign assistance and are 
        encouraging younger Iranians to study abroad to gain needed 
        technical assistance.\11\

    Although the Iranians have made considerable efforts to enhance 
their nuclear infrastructure during the past four years, there is 
little public evidence to suggest that they have made more than limited 
progress. This implies that they still might require seven to fifteen 
years to produce a weapon.
``[Iran] might steal a weapon from the arsenal of the former Soviet 
        Union.''
    Because Iran's program is in its early stages, it is difficult to 
predict how Iran will cross the nuclear threshold. Iran could acquire 
nuclear weapons in one of several ways. First, it might steal a weapon 
from the arsenal of the former Soviet Union. Second, the Iranians could 
acquire fissile material, highly enriched uranium or plutonium suitable 
for use in making atomic bombs. Finally, Iran could create the 
infrastructure needed to produce fissile material on its own.
    There have been persistent rumors that Iran has already stolen 
weapons, but to date U.S. government officials have denied the 
claims.\12\ Iran could steal a weapon clandestinely and provide no 
visible indicators to alert the outside world. Accordingly, there is 
serious concern that, should Iran steal a weapon, the outside world 
would have no knowledge of it until the Iranians decided to make their 
possession public.
    The acquisition of fissile material from the former Soviet Union 
would allow the Iranians to significantly shorten their time-lines to 
fielding a crude nuclear weapon quite soon. There is some evidence that 
the Iranians were interested in acquiring fissile material from 
Kazakhstan in the early 1990s.\13\ One source estimates that it would 
take Iran only nine to thirty-six months to produce a fission bomb once 
it obtains the necessary fissile material.\14\ This concern is probably 
reflected in General Zinni's pessimistic view.
    Should Iran have to produce its own fissile material, it will take 
considerably longer for Iran to develop a weapon. This process also 
will provide early warning, because of the size and complexity of the 
associated facilities and the unique signatures of the chemicals used. 
There is evidence that Iran has explored the development of 
capabilities to produce both highly enriched uranium and plutonium. 
Production of these two materials requires considerably different 
infrastructures.
    Iran's current efforts appear focused on completing the VVER-1000 
reactor that the Russians are building at Bushehr. This type of reactor 
is considered poorly suited to plutonium production, and Russia has 
promised that the reactor will be subject to inspection by the 
International Atomic Energy Agency (IAEA) and that spent fuel will be 
returned to Russia.\15\ Should Iran decide to break these agreements, 
it could extract plutonium from the spent fuel, but only if it also 
builds reprocessing facilities. Although the Iranians tried to obtain 
such a facility from Russia, there are no reports that it has one at 
present. U.S. government officials are concerned that acquisition of 
the Russian reactor will provide Iranian scientists with skills needed 
for reactor operation and materials handling. The greater concern 
remains that Iran will obtain a new reactor better suited to production 
of plutonium.
    Efforts by Iran to enhance its nuclear infrastructure have been 
stymied by effective U.S. government efforts to curtail Iranian 
technology acquisitions. In response to U.S. pressure, Iran has taken 
the unusual step of allowing the IAEA to conduct relatively intrusive 
inspections of its nuclear infrastructure. The IAEA has detected no 
violations of Iran's Nuclear Nonproliferation Treaty (NPT) commitments. 
Although some experts discount the IAEA conclusions, most believe that 
Iran is so early in the process of developing nuclear weapons that it 
has little need to hide its activities.\16\
    Numerous Iranian efforts to obtain nuclear technology have fallen 
apart due to strong U.S. pressure. As Iran broadened its search for 
countries willing to supply sensitive nuclear technology, it found door 
after door slammed shut. As a result, by the early 1990s Iran was 
largely limited to two principal suppliers of nuclear technology: China 
and Russia. Some U.S. government experts believe that Iran requires 
Chinese or Russian assistance to develop nuclear weapons capabilities. 
As a Department of Defense report noted, ``Chinese and Russian supply 
policies are key to Iran's success.'' \17\

                           BIOLOGICAL WEAPONS

    Iran has an offensive biological weapons program that may have 
produced small quantities of biological agents. The U.S. Defense 
Department believes that the pace of Iranian development efforts 
probably accelerated after the 1995 disclosures regarding Iraq's 
biological weapons program.\18\ It is unclear from the available 
information when U.S. government experts believe that Iran will have a 
fully mature biological agent dissemination capability.
    There is relatively little public information about Iran's 
biological weapons program. During the 1980s, an Iranian scientist made 
repeated efforts to acquire different strains of a fungus that produces 
mycotoxins from facilities in Canada. Subsequently, it developed that 
the same Iranian had attempted to acquire the organisms from the 
Central Bureau for Fungus Cultures in the Netherlands.\19\ Mycotoxins 
are the poison associated with the allegations that the Soviet Union 
used biological agents in Southeast Asia.
``. . . Iran is attempting to hire scientists who worked in the former 
        Soviet biological weapons program.''
    According to a December 1998 New York Times report, Iran is 
attempting to hire scientists who worked in the former Soviet 
biological weapons program. The Soviet Union had the world's largest 
and most sophisticated effort to develop biological weapons. At least 
some of these scientists have accepted the Iranian offers, although it 
remains unclear how many have done so or what expertise they bring to 
bear.\20\
    In January 1999, the National Council of Resistance of Iran, which 
is associated with the Mujahadeen (an Iraqi-supported group), made a 
series of allegations about the Iranian biological weapons program, 
charging that Iran has four research centers involved in the production 
of biological weapons. The council also alleged that four groups were 
involved in Iran's biological weapons program, and that these 
organizations were supported by an additional six research centers. 
However, the reliability of this information is cast into doubt by 
obvious inaccuracies, such as calling the chemical agent VX a 
biological agent.\21\
    Most experts believe that Iran is developing standard biological 
weapons agents, such as anthrax and botulinum toxin, although the 
National Council of Resistance of Iran also mentions aflatoxin, an 
agent of uncertain utility adopted by the Iraqis.\22\ The basis for 
these claims is unknown, and given Iranian ties to Russian expertise, 
the possibility that Iran might adopt agents weaponized by the former 
Soviet program, such as Marburg, smallpox, plague, and tularemia, 
cannot be discounted.\23\
    The Iranians are trying to reduce the dependence of their 
biological weapons program on foreign technology and assistance:

        Tehran--driven in part by stringent international export 
        controls--has set about acquiring the ability to produce 
        domestically the raw materials and equipment needed to support 
        indigenous biological agent production.\24\

                            CHEMICAL WEAPONS

    Iran started its chemical weapons program in 1983 to respond to 
Iraqi use of chemical agents and produced its first agent the next 
year. In 1996, the Defense Department estimated that cumulative 
production had reached ``a minimum several hundred tons of blister, 
blood, and choking agents.'' \25\ One source claims that the Iranians 
might have as much as 2,000 tons of chemical agents, possibly including 
nerve agents.\26\ More authoritatively, General Zinni has reported that 
Iran ``may have produced several thousands tons of chemical agents to 
date.'' \27\ According to Middle East defense analyst Michael 
Eisenstadt, ``Iran has the most active chemical warfare program in the 
developing world.'' \28\
    Iran is also working to enhance the sophistication of its chemical 
program. It is trying to develop nerve agents, including VX, the most 
advanced agent to enter the inventories of the United States and the 
Soviet Union.\29\ The U.S. government has suggested that Iran possesses 
stockpiles of chemical-filled artillery shells and bombs.\30\ 
Persistent reports that Iran may possess chemical warheads for its SCUD 
missiles have never been confirmed.\31\
    The effectiveness of Iran's existing chemical weapons arsenal is 
uncertain. Iran apparently relies heavily on hydrogen cyanide as a 
chemical weapon.\32\ While highly toxic, this chemical does not make an 
effective chemical agent. Although the Germans claim that they suffered 
deaths due to French hydrogen cyanide, the U.S. Army failed in its 
efforts during the Second World War to turn it into an effective 
weapon.\33\ Even if the Iranians succeeded where others have failed, 
and successfully built reliable weapons using hydrogen cyanide, the 
chemical is significantly less effective than other chemical agents. 
One estimate suggests that twenty tons of hydrogen cyanide are needed 
to equal the military effectiveness of one ton of sarin nerve 
agent.\34\
    Considerable uncertainty surrounds the Iranian chemical weapons 
program. The Iranians have signed onto the Chemical Weapons Convention 
(CWC). Under the terms of this treaty, the Iranians will be forced to 
eliminate existing stocks of chemical weapons and will be required to 
dismantle chemical production facilities. The U.S. Defense Department 
has cast doubt on the sincerity of the Iranians in this regard:

        Although Iran has signed the CWC, its efforts to establish an 
        independent chemical production capability and a wide program 
        to put chemicals into battlefield weapons cast doubt on its 
        adherence to the agreement.\35\

    It believes that Iran ``continues to upgrade and expand its 
chemical warfare production infrastructure and munitions arsenal.''
    Recent reports that Iraq may be acquiring from Russia a new type of 
chemical agent, known as Novichok agents, should raise concerns that 
Iran may do the same.\36\ The Soviet Union reportedly developed the 
Novichok agents in order to evade the controls imposed by the Chemical 
Weapons Convention. Although prohibited by the treaty, these agents are 
not specifically mentioned in the annexes to the convention. Russian 
scientists estimated that one of the Novichok agents was five to eight 
times more lethal than VX, the most dangerous nerve agent that the 
United States ever developed.\37\

                      LONG-RANGE DELIVERY SYSTEMS

    Essential to the effectiveness of an NBC weapon is the delivery 
system used to transport it to the intended target. The delivery system 
must be capable of carrying the weapon's weight, must have sufficient 
range to reach the intended target, and must be accurate enough to 
allow the weapon to perform effectively. Although many systems can be 
used to deliver NBC weapons, special modifications are needed to ensure 
that the weapon operates effectively. For tactical applications, field 
artillery can be used, and Iran is believed to possess such munitions 
for at least its chemical agents. To strike targets at longer ranges, 
however, Iran needs to rely on either long-range aircraft, such as its 
Soviet-supplied Su-24 strike aircraft, or surface-to-surface ballistic 
missiles.

                           BALLISTIC MISSILES

    The Iranians first began to acquire ballistic missiles in the mid-
1980s, when the Libyans reportedly provided them with about thirty 
Soviet-built SCUD-C missiles with a range of 300 kilometers. Since 
then, Iran has acquired additional missiles from North Korea and China, 
and has been provided with assistance for indigenous development of 
missiles by China, North Korea, and Russia.
    According to the International Institute for Strategic Studies, 
Iran currently has more than 400 surface-to-surface missiles, including 
about twenty-five CSS-8 launchers with 200 missiles and about ten SCUD 
launchers with 210 SCUD-B and SCUD-C missiles.\38\ These missiles have 
sufficient range to hit targets in Iraq and the other states bordering 
the Persian Gulf. They cannot, however, strike targets very far into 
Saudi Arabia, and are unable to reach Israel. In addition, the missiles 
are relatively inaccurate. Nevertheless, Iran appears to have 
sufficient inventory to allow it to export some to the Democratic 
Republic of the Congo (previously called Zaire), according to a 
November 1999 press report.\39\
``. . . Iran will soon possess a small arsenal of operational 
        systems.''
    Iran's efforts to develop a regionally significant missile 
capability took a long step forward with the test launch of the Shahab-
3. Although the number of Shahab-3 missiles is not known, it is likely 
that Iran will soon possess a small arsenal of operational systems. The 
United States believes that Russian technology has played a critical 
part in the development of the Shahab-3, even though the missile itself 
is based on the North Korean No Dong.\40\ In late 1999, a senior U.S. 
defense official reported that Iran was experiencing problems with the 
missile and has had several unsuccessful tests.\41\ In early 2000 the 
Iranians conducted a successful test launch of a Shahab-3, using one of 
a dozen North Korean rocket motors supplied to Tehran in 1999.\42\
    Iran is also believed to be working on follow-up systems to the 
Shahab-3. Reportedly, Iran has a Shahab-4, which appears to be an 
intermediate-range ballistic missile, and a Shahab-5, which will be a 
10,000-kilometer-range intercontinental ballistic missile (ICBM). A 
December 1999 report states that General Zinni believes that Iran is 
likely to test the Shahab-4 in early 2000.\43\
    In addition to these missiles, Kenneth Timmerman believes that Iran 
is developing a new missile, known as the Kosar. The Kosar is based on 
the Soviet SS-5 missile and uses the same RD-216 liquid-fuel rocket 
motor. The SS-5 had a range of 4,250 kilometers. This missile may be 
the basis for Iran's reported space launch vehicle.\44\ The 
relationship between the Kosar and Shahab-4 or Shahab-5 is unclear.
    Iran may also be testing a sea-based launching capability for its 
missiles to allow it to strike targets too distant to be reached by 
missiles fired from within its borders. According to one report, in 
early 1998 Iran tested a short-range surface-to-surface missile from a 
barge located in the Caspian Sea. The report suggests that Iran may 
intend to launch missiles from merchant ships, thus allowing it to 
strike Israel or the United States with its SCUD-class missiles.\45\
    Significantly, the U.S. intelligence community is no longer sure 
that it will take Iran a long time to develop an ICBM:

        If Iran follows a development time line similar to that 
        demonstrated with the Shahab-3, which included significant 
        foreign assistance, it would take Iran many years to develop a 
        9,000 to 10,000 km range ICBM capable of reaching the United 
        States. But Iran could significantly shorten the acquisition 
        time--and warning time--by purchasing key components or entire 
        systems from potential sellers such as North Korea.\46\

    The evolving views of the U.S. intelligence community on the 
possibility that Iran could acquire ICBMs are reflected in the 
unclassified version of a National Intelligence Estimate released in 
September 1999. According to the public testimony of the national 
intelligence officer responsible for the report, North Korea is the 
most likely country to acquire an ICBM. Significantly, he then 
suggested that ``Iran is the next hostile country most capable of 
testing an ICBM capable of delivering a weapon to the United States 
during the next 15 years.'' Other assessments of Iranian missile 
capabilities include the following:

  <bullet> Iran could test an ICBM that could deliver a several-
        hundred-kilogram payload to many parts of the United States in 
        the latter half of the next decade, using Russian technology 
        and assistance.

  <bullet> Iran could pursue a Taepo Dong-type ICBM and could test a 
        Taepo Dong-1 or Taepo Dong-2-type ICBM, possibly with North 
        Korean assistance, in the next few years.

  <bullet> Iran is likely to test an SLV (space launch vehicle) by 2010 
        that--once developed--could be converted into an ICBM capable 
        of delivering a several-hundred-kilogram payload to the United 
        States.

  <bullet> Beyond that, analysts differ on the likely timing of Iran's 
        first flight test of an ICBM that could threaten the United 
        States. Assessments include:

  <bullet> likely before 2010 and very likely before 2015 (noting that 
        an SLV with ICBM capabilities will probably be tested within 
        the next few years);

  <bullet> no more than an even chance by 2010 and a better than even 
        chance by 2015;

  <bullet> and less than an even chance by 2015.\47\

    As the alternative views suggest, there is little agreement within 
the intelligence community about the time required for Iran to acquire 
an ICBM capability. Given the high risks of underestimating the threat 
from Iran, it is probably prudent to assume that Iran will possess a 
missile capable of striking U.S. cities by 2010.
``Iran is the next hostile country most capable of testing an ICBM 
        capable of delivering a weapon to the United States . . .''
    The key problem for the Iranian ballistic missile program is now 
the development of warhead designs to permit effective delivery of NBC 
weapons. As the Iranians develop longer-range systems, the need for 
more sophisticated warheads grows. A warhead suitable for use in a 
short-range ballistic missile, such as the SCUD-B, which flies at a 
relatively low speed and does not leave the atmosphere, is unlikely to 
be useful in a missile with longer ranges that flies at higher 
velocities and goes outside the atmosphere.
    For biological and chemical weapons, this means developing warheads 
intended for cluster munition delivery. The United States and the 
Soviet Union are known to have developed chemical and biological 
cluster munitions for use in ballistic missiles. Significantly, the 
Soviet Union reportedly developed a system for use in delivering 
biological agents in intercontinental ballistic missiles (ICBMs).\48\
    Iranian efforts to develop ballistic missiles have been materially 
aided by Russia. This support continues despite numerous efforts by the 
United States to convince the Russians to end it. In February 1999, 
George Tenet, Director of Central Intelligence, testified about this 
activity:

        Especially during the last six months, expertise and materiel 
        from Russia has continued to assist the Iranian missile effort 
        in areas ranging from training, to testing, to components. This 
        assistance is continuing as we speak, and there is no doubt 
        that it will play a crucial role in Iran's ability to develop 
        more sophisticated and longer range missiles.\49\

                            CRUISE MISSILES

    The Iranians also have an interest in cruise missiles. Cruise 
missiles are unmanned aircraft-like missiles with a self-contained 
guidance system. Using modern satellite navigation systems, cruise 
missiles can attain accuracies of less than 20 meters. They can carry 
nuclear, biological, or chemical weapons. Some experts believe that 
cruise missiles are more effective delivery systems for chemical and 
biological agents than ballistic missiles.\50\
    Iran is known to possess several remotely piloted vehicles and 
antiship cruise missiles. In 1989, the Iranians displayed three 
homemade remotely piloted vehicles (RPVs), apparently intended 
primarily for reconnaissance purposes. All three were simple propeller-
driven designs that relied on radio control for guidance, much like a 
hobbyist's model airplane. Significantly, the Iranians suggested that 
the craft could be used as weapons, indicating an interest in land-
attack cruise missiles.\51\
    Recently, Iran took a significant step forward in its efforts to 
develop cruise missile capabilities. According to the Washington Post, 
U.S. intelligence experts believe that Iran can now make the C-802 
antiship cruise missile, which is a Chinese system based on the French 
Exocet antiship missile.\52\ The C-803 has a range of seventy-five 
miles and can carry a payload of 365 pounds. The C-802 is powered by a 
version of the French TRI-60 engine manufactured by Microturbo. This 
engine is used in a variety of cruise missiles, including the French 
Apache, which has a range of up to 800 kilometers, depending on the 
version.
``The U.S. government has now spent more than fifteen years trying to 
        stop Iran's NBC acquisition programs.''
    If these reports are correct, there is little to stand in the way 
of an Iranian effort to acquire cruise missiles suitable for delivery 
of biological and chemical weapons. A version of the C-802 could have 
the range and payload for such weapons if intended for use against a 
neighboring state. For longer ranges, the Iranians would have to rely 
on a different system. The Iranians could marry the Silkworm platform 
to develop a longer-range missile with a large payload, as much as 800 
kilometers according to an estimate given by Aaron Karp, an expert on 
missile proliferation.\53\

                          U.S. POLICY OPTIONS

    What steps can be taken to halt or constrain Iran's efforts to 
develop weapons of mass destruction? The U.S. government has now spent 
more than two decades working to stop Iran's NBC acquisition programs. 
The good news is that these efforts have achieved many successes, and 
as a result the Iranians' capabilities are far less advanced than would 
have been the case without the U.S. initiatives. The bad news is that 
it is highly unlikely that it will be possible to stop or roll back the 
Iranian weapons programs. Thus the United States needs to prepare to 
deal with the implications of Iranian possession of NBC weapons and 
their associated delivery systems.
    This view may seem unduly pessimistic. But the reality, as shown by 
the difficulties associated with efforts to eliminate Iraq's NBC 
programs, is that it is virtually impossible to terminate such 
activities without the active agreement of the proliferating country. 
Any country truly committed to acquiring NBC weapons will eventually 
obtain them. Nonproliferation efforts, however, are critical for 
several reasons, First, such efforts drive up the cost of the programs, 
thus inevitably reducing the size of Iran's weapons arsenal. Second, 
prevention programs reduce the likely sophistication of the 
capabilities, because the Iranians necessarily find it more difficult 
to obtain the needed technology from the best sources. Finally, 
nonproliferation efforts impose delays, and thus make it less likely 
that Iran will have the capabilities that it seeks in time of crisis.
    Thus, even only partially successful U.S. policies have yielded 
significant benefits. Nor should the United States abandon these 
policies once Iran actually begins to acquire NBC weapons. When Iran 
acquires the capability to use a particular class of weapons, it will 
seek to enhance the sophistication of these weapons and expand the size 
of its arsenal. Iran is not satisfied to possess first- and second-
generation chemical agents, such as hydrogen cyanide and mustard gas. 
It also wants more effective third-generation chemical agents, such as 
VX. Similarly, it is not enough to acquire short-range ballistic 
missiles; Iran also wants longer-range systems.
    What this suggests, however, is that nonproliferation programs 
cannot be the only components of a response to Iran's NBC programs. 
Military responses, such as active and passive defenses against NBC 
weapons, are also essential to reduce the effectiveness of these 
weapons if they are used. These must be coupled with deterrence 
policies designed to reduce the willingness of the Iranians to employ 
NBC weapons, as well as reassurance policies intended to demonstrate to 
U.S. allies and friends in the to their security.
    In sum, then, U.S. policy options are of two types: (1) those that 
delay Iran's development of weapons of mass destruction through arms 
control, Cooperative Threat Reduction, and export controls, and (2) 
those that deter Iran's ultimate use of such weapons, including theater 
missile defenses, biological and chemical defenses, and consequence 
management.

                             DELAY OPTIONS

    A review of Iran's NBC and missile development programs suggests 
that the Iranians have two weaknesses that can be exploited as the 
United States continues to develop its responses. First, Iran remains 
dependent on foreign technology and technical expertise, especially in 
program management and systems integration. Second, the Iranians have 
limited financial resources, and that prevents them from establishing 
massive redundant programs in the way the Iraqis did during the 1980s. 
This means that they cannot compensate for delays or increased costs 
imposed by U.S. interference simply by throwing more money at the 
problem.
    Arms Control. The framework for U.S. efforts to constrain Iran is 
the nonproliferation regime created over many years through the 
negotiation of multilateral arms-control treaties intended to prevent 
the proliferation of NBC weapons and related delivery systems. These 
agreements provide the structure to accommodate a wide range of 
supporting activities essential for the success of nonproliferation 
policies.
    The Nuclear Nonproliferation Treaty (NPT) is intended to halt the 
spread of nuclear weapons by controlling sensitive technologies 
associated with nuclear weapons development. The NPT focus has 
traditionally been on the nuclear fuel cycle, designed to prevent a 
country from building the infrastructure needed to produce fissionable 
material. The problem is that there are alternative ways to acquire 
fissile material, especially given the disarray in the former Soviet 
Union. Thus, even if the IAEA mechanisms are highly effective-a dubious 
proposition-Iran still possesses alternative routes to acquire nuclear 
weapons.
    Two treaties form the basis for arms control in the area of 
biological weapons. The 1926 Geneva Protocol prohibits the use of 
biological weapons, while the Biological Weapons Convention (BWC) 
prohibits their possession or production. The BWC, however, provides no 
inspection or verification system. Some arms-control advocates believe 
it possible to create such arrangements in the area of biological 
weapons, but there is considerable reason to question the utility of 
such a development, since it is doubtful whether even a well designed 
verification system would detect an illicit biological weapons program. 
Certainly, the experience of the United Nations Special Commission 
(UNSCOM) in Iraq gives grounds for skepticism about the prospects for 
an effective inspection regime for biological weapons programs. The 
main use of the BWC, then, is to provide the international norm that 
justifies U.S. concerns over Iran's illegal efforts to develop 
biological weapons.
    Finally, there is the Chemical Weapons Convention (CWC). As 
previously noted, Iran will have to eliminate its chemical weapons 
capabilities in order to come into compliance with the CWC. Iran has 
admitted past possession of chemical weapons production facilities but 
does not admit to any current possession.\54\ It may try to evade 
treaty restrictions and retain chemical weapons and their production 
capabilities. The United States must use the international mechanisms 
being developed to ensure compliance with the CWC to expose illicit 
Iranian activities. With these treaties as a foundation, the United 
States can use bilateral and multilateral diplomacy to constrain 
Iranian efforts to acquire technology.
``The U.S. government has placed a high premium on the Cooperative 
        Threat Reduction program to prevent Iran--or any other 
        country--from acquiring weapons.''
    Cooperative Threat Reduction. When the Soviet Union collapsed, U.S. 
government officials recognized that there was a high risk that 
expertise, technology, and sensitive materials critical to the 
development of NBC weapons could assist proliferating countries like 
Iran. As a result, the Cooperative Threat Reduction initiative was 
launched. Although the program deals with biological and chemical 
components, its primary focus has been the security of the nuclear 
technology of the states that formerly constituted the Soviet Union.
    The U.S. government has placed a high premium on the Cooperative 
Threat Reduction program to prevent Iran--or any other country--from 
acquiring weapons. Whether these efforts will be sufficient to prevent 
future thefts, given Russia's growing economic and political turmoil, 
remains to be seen.
    Export Controls. Iranian efforts to develop NBC weapons and 
delivery systems depend heavily on foreign assistance. Iran's nuclear 
weapons program appears to rely on China and Russia, its chemical 
weapons program on China, its biological weapons program on Russia, and 
its missile program on a combination of Russian, Chinese, and North 
Korean support. The salience of external support is evident in a U.S. 
Defense Department statement about Iran's chemical weapons program:

        China is an important supplier of technologies and equipment 
        for Iran's chemical warfare program. Therefore, Chinese supply 
        policies will be key to whether Tehran attains its long-term 
        goal of independent production for these weapons.\55\
``. . . eliminating foreign support for Iran's weapons program would 
        slow development, reduce sophistication, and increase cost.''
    This suggests that eliminating foreign support for Iran's weapons 
programs would slow development, reduce sophistication, and increase 
costs.
    The Clinton administration has pressured China, Russia, and North 
Korea to end state-supported activities and to curtail illicit exports. 
The track record, however, is extremely uneven. North Korea, which 
clearly views missile sales as a source of badly needed foreign 
exchange, has made it quite clear that it will continue the practice. 
Similarly, there are severe doubts about the willingness of China and 
Russia to stop all but the most flagrant exports.
    Two problems make it impossible to rely on export controls to halt 
transfers of technology. First, despite considerable pressure from 
Congress, the administration has not been willing to impose significant 
costs on China or Russia for their ongoing efforts to support Iran's 
weapons programs. For a variety of reasons, the administration has 
determined that pushing too hard on these issues would harm efforts to 
develop closer ties with China and Russia. Although this view may be 
justified by the broader context of U.S. strategic interests, it does 
nothing to keep Iran from developing NBC weapons.
    Second, even countries that support U.S. nonproliferation 
objectives are often more willing to trade with Iran than the United 
States believes appropriate. This is a clear lesson of the French 
willingness to sell Microturbo engines to Iran, ostensibly as power 
generators, even though the equipment might be helping Iran develop an 
indigenous production capability for cruise missiles. While some U.S. 
officials believe that the engine parts supplied by France assisted 
Iran in its efforts to produce cruise missile engines, the French were 
unwilling to be persuaded by the U.S. evidence. If it is difficult to 
reach agreement with a NATO partner, the prospects of reaching 
agreement with countries that have radically different views of their 
national interests are even less likely.
    Trade Restrictions. In particular, the U.S. Congress has sought to 
exploit Iran's need for investments. A focal point of this effort was 
the 1996 Iran and Libya Sanctions Act (ILSA). In May 1998, the 
administration, however, agreed to waive sanctions for oil and gas 
investments in Iran, effectively gutting the act. Secretary of State 
Madeline Albright justified this action in the following way:

        Among other factors, I considered the significant, enhanced 
        cooperation we have achieved with the European Union and Russia 
        in accomplishing ILSA's primary objective of inhibiting Iran's 
        ability to develop weapons of mass destruction and support of 
        terrorism.\56\

    The European countries in particular objected to IILSA due to the 
insistence on imposing sanctions on entities outside the legal 
jurisdiction of the United States. Moreover, the Europeans prefer a 
policy of engagement toward Tehran, rather than one that focuses on 
sanctions.
    As a practical matter, ILSA had only a limited impact on Iran. In 
general, the Iranians have been hindered more by unfriendly investment 
policies than by U.S. sanctions legislation. Indeed, a study by the 
Economist Intelligence Unit ranked Iran 59 of 60 countries reviewed for 
their attractiveness to foreign investors.\57\

                           DETERRENCE OPTIONS

    The Department of Defense's Counterproliferation Initiative was 
started in the early days of the Clinton administration because 
Secretary of Defense Les Aspin strongly believed that nonproliferation 
efforts might fail, and, as a result, the U.S. military might be forced 
to fight an adversary armed with NBC weapons. As originally conceived, 
the Counterproliferation Initiative focused on having a balanced 
military response to allow the United States to defeat an NBC-armed 
adversary.
    Theater Missile Defenses. Active defenses are a critical element of 
efforts to defeat NBC weapons. Because the most likely delivery systems 
for these weapons are ballistic and cruise missiles, the U.S. military 
needs robust theater missile defense systems. The importance of the 
missile defenses was highlighted during the 1991 Gulf War, when the 
mere presence of Patriot missile batteries helped nullify the strategic 
advantage that the Iraqis gained from their missile attacks against 
Israel and Saudi Arabia. Although there is little evidence that the 
Patriots successfully intercepted many missiles, they provided enormous 
political benefits. This demonstrates the importance of having even 
partially effective missile defense systems.
    As a result of its experience in the Gulf War, Israel increased its 
commitment to missile defenses and to the Arrow missile program. The 
first three Arrow batteries became operational in March 2000. 
Unfortunately for Israel, Iranian missiles pose an even tougher 
challenge than the Iraqi missiles. The farther a ballistic missile 
flies, the higher its speed is on reentry and the harder it is for a 
missile defense system to hit it. Similarly, Israel appears interested 
in developing a so-called Boost Phase Intercept weapon, which is 
designed to destroy a ballistic missile just after launch or a launcher 
immediately after it has fired such a missile. The Israeli program 
appears to rely on remotely piloted vehicles, which would have to be 
flown into Iranian territory, a daunting technical challenge. The 
United States needs to work with Israel to ensure that the latter has 
the range of capabilities needed to defend against Iranian missiles.
    Biological and Chemical Defenses. After the Gulf War, the U.S. 
Defense Department determined that the U.S. military lacked adequate 
biological and chemical defenses. Since then, there has been a serious 
effort to enhance the quantity and quality of such defenses. This 
includes equipment designed to detect chemical and biological agents, 
protective garments and gas masks that put barriers between soldiers 
and the toxic materials, and decontaminating agents to eliminate 
hazardous substances.
    Israel is the only country in the region that has a significant 
capability in these matters. In addition, it is one of the few 
countries anywhere in the world that provides such protection for its 
civilian population. Israel, then, is probably better prepared as a 
nation to deal with this threat than virtually any other country, 
including the United States.
    Consequence Management. As a result of the Clinton administration's 
concern that U.S. cities may be increasingly vulnerable to biological 
and chemical terrorism, the United States is devoting considerable 
resources to programs for mitigating the consequences of biological and 
chemical weapons attacks on urban areas. This means developing response 
capabilities to deal with casualties and to clean up contaminated 
areas. The significant expenditure of resources on this is providing 
the United States a unique expertise in the complexities of dealing 
with the consequences of biological and chemical use against civilians.
    Israel already has considerable capability to conduct consequence 
management, and the techniques being developed in the United States 
will enhance its capacity to respond. Unfortunately, other U.S. allies 
in the region lack Israel's capabilities. The United States needs to 
work with them to ensure that they are not left vulnerable to 
biological and chemical weapons attack.

                               CONCLUSION

    The United States probably cannot stop Iran from acquiring NBC 
weapons, so long as the Iranians remain willing to pay the political 
and economic costs of pursuing such programs. But there is a great deal 
the United States can do to constrain Iranian capabilities so as to 
reduce the risks they pose to the U.S. military forces operating in the 
region and to U.S. friends and allies there. Three administrations have 
pursued policies aimed at preventing the Iranians from acquiring NBC 
weapons and missile delivery systems. Although they have not prevented 
Iran from making dangerous progress, the Iranians would be considerably 
more powerful today if it had not been for those efforts. These 
policies have slowed the Iranian programs, increased their financial 
cost, and limited the size and sophistication of Iranian capabilities.
``. . . even rudimentary Iranian capabilities pose a danger to U.S. 
        friends and allies in the region.''
    However, even rudimentary Iranian capabilities pose a danger to 
U.S. friends and allies in the region. This means that the United 
States must actively assist those countries develop responses to the 
threat posed by NBC weapons. What is needed will vary from one country 
to another. Israel is unique because it has the capacity to develop 
effective responses to Iran's weapons, even as its sensitivity to even 
limited casualties makes it highly vulnerable. The United States needs 
to continue its collaboration with Israel in missile defenses, and 
extend that effort to the arena of consequence management. Other 
countries, especially the six Gulf Cooperation Council (GCC) states, 
lack Israel's robust defense and deterrence capacities, and so the 
United States may have to provide more direct assistance. Where 
appropriate, the United States needs to ensure the availability of 
missile defenses, either by selling missile defense systems or 
deploying U.S.-manned systems. Moreover, the United States needs to 
work with the GCC countries to enhance their consequence management 
capabilities.
    Finally, the United States must continue to pursue a strategy that 
combines multilateral, bilateral, and unilateral activities. The United 
States cannot deal with this problem by itself, and needs the support 
of governments around the world. At the same time, the United States 
cannot allow its policies to be influenced by those in the 
international community who believe that consensus is more important 
than results. The United States must be prepared to go it alone when 
necessary to protect its national interests, even in the face of 
criticism from others.

                                 NOTES

    \1\ Tehran IRNA in English, 1722 GMT Aug. 4, 1998, Foreign 
Broadcast Information Service (FBIS).
    \2\ Statement by Acting Director of Central Intelligence George J. 
Tenet before the Senate Select Committee on Intelligence, hearing on 
Current and Projected National Security Threats to the United States, 
Feb. 5, 1997, as found at http://www.cia.gov. He stated: ``in less than 
10 years Iran probably will have longer range missiles that will enable 
it to target most of Saudi Arabia and Israel.''
    \3\ Robert D. Walpole, national intelligence officer for strategic 
and nuclear programs, ``North Korea's Taepo Dong Launch and Some 
Implications on the Ballistic Missile Threat to the United States,'' 
Center for Strategic and International Studies, Dec. 8, 1998, as found 
at http://www.cia.gov.
    \4\ Steve Rodan, ``Iran Completes Shihab-3 Development,'' Ha'aretz, 
Mar. 12, 2000, as carried by FBIS's on-line data base.
    \5\ Ralph Perry, ``Iran rejects chemical weapons charge,'' United 
Press International, Mar. 23, 1995.
    \6\ Statement of Director of Central Intelligence George J. Tenet, 
as prepared for delivery before the Senate Armed Services Committee 
hearing on Current and Projected National Security Threats, Feb. 2, 
1999, as found at http://www.cia.gov.
    \7\ Arms Control and Disarmament Agency, Adherence to and 
Compliance with Arms Control, 1997, as found at http://www.acda.gov.
    \8\ Statement of George J. Tenet, Feb. 2, 1999.
    \9\ New York Times, Jan. 10, 1995, p. A1O.
    \10\ Aviation Week & Space Technology, Dec. 13, 1999, p. 33.
    \11\ Office of the Secretary of Defense, Proliferation: Threat and 
Response (Washington), April. 1996, p. 14.
    \12\ Michael Eisenstadt, Iranian Military Power: Capabilities and 
Intentions (Washington, D.C.: Washington Institute for Near East 
Policy, 1996), p. 24, and Anthony H. Cordesman and Ahmed S. Hashim, 
Iran: Dilemmas of Dual Containment (Boulder, Colo.: Westview Press, 
1997), p. 306.
    \13\ Eisenstadt, Iranian Military Power, p. 16.
    \14\ Cordesman and Hashim, Iran, p. 306.
    \15\ Ibid., pp. 299-301, and Eisenstadt, Iranian Military Power, 
pp. 19-21.
    \16\ Cordesman and Hashim, Iran, pp. 299-301.
    \17\ Proliferation: Threat and Response, November 1997, p. 25.
    \18\ Ibid., p. 27.
    \19\ Don Sutton, ``Harmful Fungi Requested by Iranian, Scientist 
Says,'' Globe and Mail (Toronto), Aug. 14, 1989, p. A1, as cited in Ron 
Purver, Chemical and Biological Terrorism: The Threat According to the 
Open Literature, Canadian Security Intelligence Service, June 1995, p. 
35.
    \20\ Judith Miller and William J. Broad, ``Bio-Weapons in Mind, 
Iranians Lure Needy Ex-Soviet Scientists,'' New York Times, Dec. 8, 
1998, pp. A1, A12.
    \21\ ``Iran Accused of Bio-Weapons Program'' Associated Press, Jan. 
26, 1999; ``Iranian Opposition Alleges Huge Bio-Warfhre Program in 
Tehran,'' Agence France Presse, Jan. 26, 1998.
    \22\ Arnold Beichman, ``Arsenal of Germs in Iran?'' Washington 
Times, Jan. 26, 1999, p. 17.
    \23\ For a discussion of the former Soviet program, see Ken Alibek, 
Biohazard (New York: Random House, 1999).
    \24\ Statement by Special Assistant to the DCI for Nonproliferation 
John A. Lander on the Worldwide Biological Warfare Threat to the House 
Permanent Select Committee on Intelligence as prepared for delivery on 
Mar. 3, 1999, as found at http:/www.cia.gov
    \25\ Proliferation: Threat and Response, April 1996, p. 15.
    \26\ Andrew Rathmell, ``Chemical Weapons in the Middle East--
Lessons from Iraq,'' Jane's Intelligence Review, December 
1995.Eisenstadt, Iranian Military Power, p. 26, suggests that Iran can 
produce several hundred tons of agent per year.
    \27\ Statement of Gen. Anthony C. Zinni, commander in chief, U.S. 
Central Command, before the House Armed Services Committee, Mar. 11, 
1999, as found at http://www.house.gov/hasc/
    \28\ Eisenstadt, Iranian Military Power, p. 26.
    \29\ Proliferation: Threat and Response, November 1997, p. 27.
    \30\ Ibid.
    \31\ Cordesman and Hashim, Iran, p. 292, and Eisenstadt, Iranian 
Military Power, p. 26.
    \32\ Proliferation: Threat and Response, April 1996, p. 15.
    \33\ For the First World War experience with hydrogen cyanide, see 
L. F. Haber, The Poisonous Cloud: Chemical Warfare in the First World 
War (Oxford: Clarendon Press, 1986), and Augustin Prentiss, Chemicals 
in War: A Treatise on Chemical Warfare (New York: McGraw-Hill Book 
Company, 1937), pp. 171-174. World War II research is discussed in 
Stanford Moore and Marshall Gates, ``Hydrogen Cyanide and Cyanogen 
Chloride,// pp. 7-16, in Division 9, National Defense Research 
Committee, Office of Scientific Research and Development, Chemical 
Warfare Agents and Related Chemical Problems, parts I-II (Washington, 
D.C., 1946).
    \34\ Proliferation: Threat and Response, November 1997, p. 27.
    \35\ Proliferation: Threat and Response, April 1996, p. 16.
    \36\ Richard Z. Chesnoff with Douglas Pasternak, ``Mystery at a 
Pesticide Plant,'' US News and World Report, Oct. 25, 1999.
    \37\ Judith Miller, ``U.S. and Uzbeks Agree on Chemical Arms Plant 
Cleanup,'' New York Times, May 25, 1999, and Jonathan Tucker, 
``Converting Former Soviet Chemical Plants,'' Nonproliferation Review, 
Fall 1999, pp. 78-89. Tucker's article provides considerable detail on 
the program to develop the Novichok agents.
    \38\ International Institute for Strategic Studies, The Military 
Balance, 1998/99 (London: Oxford University Press for the International 
Institute for Strategic Studies, 1998), p. 127.
    \39\ ``DRC Receives Iranian `Scud' Missiles,'' Jane's Defence 
Weekly, Dec. 1, 1999, and Bill Gertz, ``Iran Sold Scud Missiles to 
Congolese,'' Washington Times, Nov. 22, 1999.
    \40\ Statement for the Record to the Senate Foreign Relations 
Committee on Foreign Missile Developments and the Ballistic Missile 
Threat to the United States Through 2015 by Robert D. Walpole, National 
Intelligence Officer for Strategic and Nuclear Programs, Sept. 16, 
1999, as found at http://www.cia.gov
    \41\ Aviation Week & Space Technology, Dec. 13, 1999, p. 33.
    \42\ Bill Gertz, ``N. Korea Sells Iran Missile Engines,'' 
Washington Times, Feb. 9, 2000, p. 1.
    \43\ Aviation Week & Space Technology, Dec. 13, 1999, p. 33.
    \44\ ``Iran Preparing Bigger Missile Launch,'' Reuters, July 15, 
1999. This report is based largely on the testimony of Kenneth R. 
Timmerman, president, Middle East Data Project, Inc., before the 
Subcommittee on Space and Aeronautics, Hearing on H.R. 1883, Iran 
Nonproliferation Act of 1999, July 13, 1999, as found at http.//
www.house.gov/science/
    \45\ Kenneth Timmerman, ``Trumped by Iran's New Missile,'' 
Washington Times, May 5, 1999.
    \46\ Statement of George J. Tenet, Feb. 2, 1999.
    \47\ Statement of Robert D. Walpole, Sept. 16, 1999.
    \48\ Alibek, Biohazthd, pp. 5-8.
    \49\ Statement of George J. Tenet, Feb. 2, 1999.
    \50\ This discussion of cruise missile technologies is based on W. 
Seth Carus, Cruise Missile Proliferation in the 1990s (Westport, Conn.: 
Praeger, 1992).
    \51\ Dan Boyle and Robert Salvy, ``Iranian RPVs,'' International 
Defense Review, June 1989, p. 857.
    \52\ John Mintz, ``Tracking Arms: A Study in Smoke,'' Washington 
Post, Apr. 3, 1999, pp. A3-A4.
    \53\ Aaron Karp, ``Lessons of Iranian Missile Programs for U.S. 
Nonproliferation Policy,'' Nonproliferation Review, Spring-Summer 1998, 
p. 20, discusses the possibilities of Iran's developing cruise missile 
systems.
    \54\ ``News Chronology,'' CBW Conventions Bulletin, Issue No. 46, 
December 1999, p. 25, includes Iran in a list of nine countries 
(``China, France, India, Iran, Japan, Russia, the UK, the USA, and one 
other'') admitted to possession of chemical weapons (U.S., Russia, 
India, and ``one other''--the one other is presumably the same one in 
the previous list). On 17 November 1998, the Director General of the 
Iranian Foreign Ministry admitted that Iran possessed chemical weapons 
at the end of the Iran-Iraq war, but said, ``Following the 
establishment of cease fire, the decision to develop chemical weapons 
capabilities was reversed and the process was terminated.'' See ``News 
Chronology,'' CBW Conventions Bulletin, Issue No. 43, February 1999, p. 
20.
    \55\ Proliferation: Threat and Response, November 1997, p. 27.
    \56\ Secretary of State Madeleine K. Albright, Statement on ``Iran 
and Libya Sanctions Act (ILSA): Decision in the South Pars Case,'' 
London, United Kingdom, May 18, 1998, as released by the Office of the 
Spokesman U.S. Department of State, as found on the Department of State 
web site, http://www.srate.gov.
    \57\ Keith Weissman, ``Iran Falling to Attract Foreign 
Investment,'' Near East Report, July 12, 1999, as found at http://www/
aipac.org


</pre></body></html>
